<html>
<title> - ARMY STRATEGIC INITIATIVES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-92]
 
                       ARMY STRATEGIC INITIATIVES

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 26, 2007


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                  U.S. GOVERNMENT PRINTING OFFICE
44-632                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        JO ANN DAVIS, Virginia
ROBERT ANDREWS, New Jersey           W. TODD AKIN, Missouri
SUSAN A. DAVIS, California           J. RANDY FORBES, Virginia
RICK LARSEN, Washington              JEFF MILLER, Florida
JIM COOPER, Tennessee                JOE WILSON, South Carolina
JIM MARSHALL, Georgia                FRANK A. LoBIONDO, New Jersey
MADELEINE Z. BORDALLO, Guam          TOM COLE, Oklahoma
MARK E. UDALL, Colorado              ROB BISHOP, Utah
DAN BOREN, Oklahoma                  MICHAEL TURNER, Ohio
BRAD ELLSWORTH, Indiana              JOHN KLINE, Minnesota
NANCY BOYDA, Kansas                  CANDICE S. MILLER, Michigan
PATRICK J. MURPHY, Pennsylvania      PHIL GINGREY, Georgia
HANK JOHNSON, Georgia                MIKE ROGERS, Alabama
CAROL SHEA-PORTER, New Hampshire     TRENT FRANKS, Arizona
JOE COURTNEY, Connecticut            BILL SHUSTER, Pennsylvania
DAVID LOEBSACK, Iowa                 THELMA DRAKE, Virginia
KIRSTEN E. GILLIBRAND, New York      CATHY McMORRIS RODGERS, Washington
JOE SESTAK, Pennsylvania             K. MICHAEL CONAWAY, Texas
GABRIELLE GIFFORDS, Arizona          GEOFF DAVIS, Kentucky
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
JAMES R. LANGEVIN, Rhode Island
                    Erin C. Conaton, Staff Director
                 Mark Lewis, Professional Staff Member
                 John Wason, Professional Staff Member
                   Margee Meckstroth, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, September 26, 2007, Army Strategic Initiatives........     1

Appendix:

Wednesday, September 26, 2007....................................    49
                              ----------                              

                     WEDNESDAY, SEPTEMBER 26, 2007
                       ARMY STRATEGIC INITIATIVES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     3
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Casey, Gen. George W., Jr., USA, Chief of Staff, U.S. Army.......     9
Geren, Hon. Pete, Secretary of the Army..........................     5

                                APPENDIX

Prepared Statements:

    Casey, Gen. George W., Jr....................................    64
    Geren, Hon. Pete.............................................    53

Documents Submitted for the Record:

    Equipment exhibits submitted by Gen. George W. Casey, Jr.....    75

Witness Responses to Questions Asked During the Hearing:

    Mr. Spratt...................................................    81

Questions Submitted by Members Post Hearing:

    Mr. Abercrombie..............................................    89
    Mr. Loebsack.................................................    92
    Mr. Ortiz....................................................    85
                       ARMY STRATEGIC INITIATIVES

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                     Washington, DC, Wednesday, September 26, 2007.
    The committee met, pursuant to call, at 2:45 p.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Ladies and gentlemen, we will come to order.
    We are pleased to have the Secretary of the Army with us 
today and the Army Chief of Staff. We will officially welcome 
them in just a moment. Two matters before we begin.
    I notice there is a soldier in full body uniform. And I 
hope your sergeants will not ask you to keep that on the entire 
time. So feel free, after you have been properly introduced a 
few moments from now, to remove that, because it gets hot in 
here, even with a suit coat on, so feel free to remove that.
    Also we meet today on our chief of staff Erin Conaton's 
birthday, so I want to say happy birthday to Erin Conaton.
    Secretary of the Army, Honorable Pete Geren, Army Chief of 
Staff, General George Casey, we welcome you as our special 
guests.
    We know General Casey to be an outstanding leader, 
dedicated soldier, and the Army is very much in capable hands. 
We hold this hearing today at General Casey's request. He has 
asked for this opportunity to present to the Congress his 
assessment of the current state of the Army, providing his 
insight into what the future holds for it, and then describe 
for us the set of priorities as he guides the Army forward.
    I want to stress how this is an example of the sort of 
partnership that should and does exist between the Department 
of Defense and our committee. Of course this committee is 
charged with oversight of the Department of Defense, and 
sometimes we have to be directive in our dealings. But we are 
certainly happy to provide a forum to discuss important aspects 
of our national security as well.
    And, General Casey, we appreciate your request.
    I might say that the Secretary and the General had a time 
limit on their testimony. They were kind enough, in mind of our 
vote, to extend it to 6:15. And we will do our best to have all 
the members ask questions by then.
    General Casey, the Army has a good story to tell. It is 
stressed today, and I expect we will hear exactly how stressed 
it is in a moment. I am certainly going to say a few words 
about that. But at the bottom of it, it is still a good-news 
story. Even in the face of all the stress, your soldiers, your 
civilians, your Army families continue to meet the challenges 
before them, as they have done for 232 years.
    But the Army stands on the edge of a cliff. Six years of 
war in both Afghanistan and Iraq threatens to push it over. The 
Army's people are exhausted by repeated combat rotations, and 
your equipment is worn. This is first and foremost a question 
of strategic risk.
    Gentlemen, during the 30 years I have had the honor to 
serve in Congress, this country has used military force on 12 
separate occasions. In most cases, the United States was forced 
to act, with little warning. It will happen again, later, we 
hope, and undoubtedly sooner than we would like.
    That lesson drives my present concern about the readiness 
of U.S. forces, particularly the Army and their ability to 
deter, deploy, and defeat potential adversaries of the United 
States.
    Congress is charged with providing our military with what 
they require to safeguard our national security. The most 
critical task we face, therefore, is to attend to the readiness 
of those forces. Readiness is about having the right people in 
the right numbers and providing them with the best leadership 
and educational opportunities available. It is about forces 
that are properly equipped and thoroughly trained for any 
contingency. It is also about ensuring that those trained and 
ready forces are aligned with the proper set of roles and 
missions. In short, it is about reducing strategic risk.
    In 1921, Major General Leonard Wood published a book 
entitled, America's Duty. In it, he wrote that, ``Americans are 
cheerfully confident that an untrained American is as effective 
in war as a highly trained and equally well-educated foreigner 
of equal physical strength and intelligence. There is a lack of 
appreciation of the fact that willingness does not mean fitness 
or ability.'' Those words of General Leonard Wood remain true 
today.
    General Wood wrote those words almost 30 years before Task 
Force Smith was sent to repel North Korea's invasion of South 
Korea in the summer of 1950. In the intervening years, we did 
not take his warning seriously. Undermanned, underequipped, 
undertrained, the soldiers of Task Force Smith were unprepared 
for the attack that came their way in the result of a 
humiliating retreat to the Pusan Perimeter. Those soldiers in 
our Nation learned the hard way that sending unready forces to 
war can have disastrous consequences. Today we would do well to 
keep General Wood's words and Task Force Smith's fate in mind 
when we consider the state of our military.
    The Army has degraded to an intolerable point. We broke it 
so badly in the years following Vietnam that, in 1979, Army 
Chief of Staff General Shy Meyer warned Congress of a 
``hollow'' Army. We skip forward to January of this year when 
your predecessor, General Peter Schoomaker, appeared before 
this committee, and I asked him if he were comfortable with the 
readiness of his force. He replied, ``I do have continued 
concerns about the strategic depth of our Army and its 
readiness.''
    The parallels are alarming. We cannot risk breaking the 
Army again. This is not a comment on your willingness, but 
recognition, as General Wood recognized, that will alone is 
insufficient. We must set about the task of rebuilding the 
Army. But rebuilding it in a way that it was before the wars 
will not be enough. As we reset it, it must evolve so that it 
develops the resonant capabilities required to conduct the full 
range of missions that it will face in the coming years: high-
intensity combat, to be sure, but also counter-insurgency 
missions like those that have bedeviled us in Iraq and 
Afghanistan.
    I look forward to your thoughts on how we move forward 
together to make sure our soldiers have what they need to meet 
the demands of the future, not just the equipment, but the 
training and the installations they need as well.
    The modern equipment, challenging training ranges, and 
robust installations are worthless without the right sort of 
people in the ranks. The Army has some of the finest people in 
the world, but I am worried about them, and I am worried about 
your ability to retain them after so many rotations to combat 
that their heads must be spinning, particularly the mid-career 
sergeants and the lieutenants and captains, upon whom the 
future of this force depends.
    I am worried about our ability to recruit them in the 
numbers we need, even as we grow the Army, without relying on 
measures that threaten the quality of our force. And I am 
worried about your ability to care for them, should they become 
sick or wounded.
    The common thread running through all of those challenges 
involving your soldiers is that they have families they care 
about and who care about them. Parents have to know that, when 
they send their sons and daughters to you, they are going to 
get the best of everything: the best leadership, the best 
training, the best opportunities, and the best care. Married 
soldiers have to know that, when they are deployed, their 
families are going to be taken care of. And Army families have 
to know that they are going to have a chance to be a family 
again, to live a relatively stable life together for a 
reasonable period when their soldier returns.
    The Army's recent decision to increase funding for family 
support programs is a good step. But the question is, how long 
will the support continue?
    I look forward to hearing about all of this, and, again, 
General, thank you for suggesting this hearing.
    And we would like to hear from our ranking member, our 
friend from California, Duncan Hunter.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Mr. Chairman, thank you, and thank you for 
holding this hearing.
    And it is great to welcome Secretary Geren back to this 
committee, as a guy who sat on the committee for a number of 
years and impressed us all with his leadership, with his 
intelligence, and with his eloquence. And, you know, Pete Geren 
was the epitome of the tradition of this committee, which is 
bipartisanship.
    And I remember, when this Administration first started, Mr. 
Secretary, you had a number of members of this committee, 
equally split between Democrats and Republicans, who wrote the 
Administration and said that you were one invaluable public 
servant who should be in the Department of Defense, helping to 
shape policies. It is really great to see you. And thanks for 
your great tradition of bipartisanship, because that is what we 
need in large supply right now.
    And to the Chief of Staff, General Casey, I would like to 
welcome you back. You have been before the committee as a 
former Vice Chief of Staff. A lot of us have seen you in Iraq 
as a former commander of the Multi-National Force-Iraq. Today 
you sit before us as the 36th Chief of Staff of the Army. So a 
special thanks to you, as well. And you have gone through the 
hoops and lots of bumps and tough challenges in those last 
several years and, I think, always given us a good, 
straightforward presentation and good, straightforward 
leadership. And we appreciate your appearance before us.
    You know, we are fortunate to have each of you serving us.
    And as I have already said, the Army asked to have this 
hearing so that the Secretary and the Chief of Staff could 
present the committee with a set of strategic initiatives that 
they have developed to set the Army on a strong course for the 
future.
    So, General Casey, it is my understanding that, based on 
current demands, you believe the Army is out of balance, and 
that these strategic initiatives that you are here today to 
discuss are intended to restore this balance and to prepare our 
Army for a period of persistent conflict.
    The war we are fighting today is, without a doubt, wearing 
on our force. However, I would ask both of you, are we supposed 
to only fight the wars that improve military readiness? No one 
will argue that the readiness of our military is absolutely 
crucial to the national security strategy. However, should 
declining readiness trends spur us to throw up our hands and 
give up, or should these trends be a warning to all of us and 
compel us to identify, fund, and fix the shortfalls that put 
our Nation at risk?
    The holes in the yard, which General Schoomaker talked 
about at great length, which are the shortfalls in equipment 
that existed when the war started, the sustained combat 
operations in extremely harsh conditions, and the simultaneous 
effort to transform the Army while we are having a warfight in 
two theaters, all stress the force.
    So, gentlemen, thanks for being with us today to talk about 
your strategic initiatives. We have, at times in our history, 
been caught off-guard and forced into a reactionary mode. That 
is never good. It is a reflection on your leadership and 
character that you are here today not at our request but at 
yours, to alert us of your concerns, your needs, and your 
strategic vision for the Army.
    I am glad to hear that one of the areas you intend to 
concentrate on is support for our soldiers and their families. 
And I absolutely believe that taking care of soldiers and their 
families, no matter where they are, is our top priority.
    I would also like to point out that when it comes to taking 
care of soldiers and their families, this committee has a 
reputation for stepping up to the plate. For many years, the 
committee has raised the issue of increasing end-strength. In 
fact, the Committee Defense Review, last year, recommended just 
that to the Administration. And many members on this committee, 
individually, have worked on that issue for a number of years. 
And, as a matter of fact, we have increased, to some degree, 
the end-strength of the United States Army, as well as the 
Marine Corps. But I think we all welcome the increases that are 
recommended in this year's budget.
    I am also reminded that when you ask us for money for 
reset, this committee authorized every penny that you asked 
for. And I think that is a reflection on the credibility that 
you bring to the committee when you make requests that go 
straight to the heart of readiness and force effectiveness.
    So let me just make it clear that there should be no doubt 
that the committee will again take the lead to ensure that the 
Army gets the necessary funding that it needs to take care of 
soldiers and their families for both the current and the future 
force. In order to do so, we must know what is required. And my 
challenge to both of you is for you to control the bureaucracy; 
don't let the bureaucracy control you. If our Army needs 
something, tell us.
    And our record, again, gentlemen, has been that this 
committee responds very quickly and very effectively to 
straight talk, to candid requests. And I think we stand ready 
to do that right now.
    So, Mr. Chairman, thank you for holding this hearing.
    And, again, to Pete Geren, thanks for coming home. And it 
has always been great to work with you. And you are the epitome 
of bipartisanship, in the tradition of this great committee.
    And, General Casey, thank you for being with us. I look 
forward to your testimony.
    The Chairman. Thank you, Mr. Hunter.
    Before I introduce Secretary Geren, I might comment, I bet 
we look a little bit different from that side of the table than 
when you were sitting here looking toward the table. We 
appreciate your service very much, and we will ask you to 
testify for us now, and then followed by General Casey.
    Secretary Geren.

      STATEMENT OF HON. PETE GEREN, SECRETARY OF THE ARMY

    Secretary Geren. Thank you, Mr. Chairman. And, Mr. 
Chairman, thank you for hosting this hearing.
    And, Congressman Hunter, thank you, as well.
    And thank this committee for the extraordinary support of 
the United States Army day-in, day-out, year after year.
    Mr. Chairman, the view is a little different from this side 
of the table. I think the air conditioner doesn't work quite as 
well on this side of the table either.
    A little different setting from this perspective, but it is 
truly an honor to be here. This committee and this Congress 
always has made soldiers a top priority, always made the United 
States Army a top priority. And I speak for a million men and 
women in uniform and a couple hundred thousand civilians when I 
say ``thank you'' to every one of you for standing with the 
Army during all the time, but certainly during these most 
challenging six years that we have been through during this 
first six years of this century.
    I also want to thank so many of you for going to theater. 
It means a lot to soldiers to know that their elected officials 
see them where they are doing their work, where they are doing 
the hard work of freedom. And they appreciate it very much. It 
means a great deal to them. It is a great boost for their 
morale. And I know how hard it is to leave the District, I know 
how hard it is to leave here. You are awfully busy. And that so 
many of you have gone over there, time after time, means a 
great deal to the soldiers. And thank you for doing that.
    We have 150,000 soldiers today in harm's way. We have those 
who have just gotten back, and we have those who are preparing 
to go. The 150,000 soldiers we have in harm's way today are the 
best-led, best-equipped, and best-trained soldiers we have ever 
put in the field. And today the Chief and I are here to discuss 
with you what your Army leadership plans to do to ensure that, 
5 years from now, 10 years from now, 20 years from now, we can 
still say the same thing, that our soldiers will remain the 
best-led, best-trained, and best-equipped.
    The Chief is going to talk about four imperatives: to 
sustain, to prepare, reset, and transform our force. I would 
like to focus on three subsets of those imperatives, three 
fundamental building blocks to ensure that we are prepared for 
the threats of the future and the threats of the present, what 
we need to do right now to make sure we meet the needs of 
soldiers and what we need to do in order to make sure we remain 
ready over the coming years.
    I am going to talk about the all-volunteer force and the 
role of the Army family in the health of the all-volunteer 
force, talk about health care and what we owe to our soldiers.
    Mr. Chairman, you said that moms and dads who send their 
kids into the Army, they expect the best, and we expect that we 
are going to give them the best. I can assure you that that is 
our commitment.
    And, third, an issue that has come on the screen lately, a 
very important issue for the long-term health of this Army, and 
that is acquisition, contracting, logistical support to 
soldiers. Wherever in the world we send them, we have to make 
sure we are going to be able to get them what they need and 
when they need them.
    I am going to talk about these three issues today.
    We believe we are in an era of persistent conflict. Where 
we are today is the new normal. September 10, 2001, is a 
distant memory. We are never going to return to that era of 
organizing our Army, equipping our Army, training our Army. The 
new normal is the era we are in now. And, as we look into the 
future, we believe it is going to be an era of persistent 
conflict, and we have to organize training our Army 
accordingly.
    The all-volunteer force is a national treasure, and it is 
not very old. The all-volunteer force is only 34 years old, 
really a blink of an eye when you consider the history of armed 
forces of the world and certainly even the armed forces of the 
United States.
    And the all-volunteer force is not just the soldier; the 
all-volunteer force is a soldier plus the family. The soldier 
volunteers; the family volunteers to stand with him or stand 
with her. And if you are going to have a strong all-volunteer 
force, you have to have a strong soldier but you also have to 
have a strong family.
    And when October 7th rolls around next month, we will be 
moving into the seventh year of combat operations in 
Afghanistan. This is the third-longest conflict in the Nation's 
history. It is the second-longest conflict we have ever been 
through since the Revolutionary War with an all-volunteer 
force. Since the Revolutionary War, we have never asked an all-
volunteer force to shoulder this kind of a burden for our 
Nation for this length of time.
    And the demographics of this Army are different than the 
demographics of any Army we have fielded before. We have a 
million soldiers, but half a million of those soldiers are 
married--more than half a million. And more than half of those 
spouses are employed and work outside of the home. There are 
700,000 children in the families of the United States Army 
family. When a soldier deploys, a married soldier, he or she 
leaves a single parent behind and all the challenges associated 
with that family dynamic. When a single parent deploys, that 
single parent leaves a child in the care of others. Twelve 
months was asking a lot of those families, and 15 months is 
asking more. And we, as an Army, are stepping up and doing what 
needs to be done now and planning for the future to meet the 
needs of those soldiers and those families.
    In the 1970's and 1980's, the issue for the future of the 
all-volunteer force was pay, and there was a crisis in pay. And 
the Congress and the Administration, in the early 1980's, 
stepped up and met that crisis and adjusted the pay accordingly 
and have continued. This Congress has led the way since then to 
make sure that our soldiers had the compensation that they 
needed.
    In the 1990's, also led by Congress, we saw a housing 
initiative that was pushed by the Congress that has done more 
than any other single factor to improve the day-to-day quality 
of life for our soldiers: the Residential Communities 
Initiative, which, led by Congress, we have since, as an Army, 
invested $1 billion; the private sector has invested over $10 
billion. And we have built wonderful homes in neighborhoods for 
families all across our force.
    And for those of you who have seen it, I know you know what 
I am talking about. We have built great neighborhoods, and the 
soldiers appreciate it a great deal. For the members who have 
not had an opportunity to see the product of the Residential 
Communities Initiative, I urge you to do so. I think you will 
be impressed and proud of what you have done for soldiers.
    Now the focus is on the family in an era of persistent 
conflict: the family after six years of war; the family 
anticipating that this war is going to go on; and what do we 
need to do to support that family.
    In recent years, the Army has increased by 40 the number of 
child-development centers, and we have in our budget plans for 
22 more. We built more fitness center, more chapels, more youth 
centers. And last summer, Mr. Chairman, as you know, we moved 
$100 million out of existing programs into family programs to 
dramatically increase funding to higher family readiness 
support assistance. We have doubled the funding for child care. 
We have provided additional respite care. And we have expanded 
youth programming across the Army.
    Soon, in the next couple of weeks, we are going to announce 
and launch an Army Family Action Plan. We are going to add 
additional resources to family programs working to improve 
education, health care, employment opportunities, improved 
housing, and providing additional funding to existing programs.
    The Army Family Action Plan will be an important step 
forward, but we have to always remind ourselves that support 
for the family is going to be a dynamic effort. The needs of 
the family are going to change; the demands on the soldiers are 
going to change. And we look forward to working with the 
Congress to continue to meet the needs of families.
    Health care: What happened at Walter Reed was a tragedy for 
soldiers, and it was a tragedy for the United States Army, but 
it was a wake-up call to the United States Army. And I am proud 
to see the way that soldiers stepped up and worked to change 
that system, stepped up to make that system work better for 
soldiers.
    And, Mr. Chairman, I think this poster we have in the 
corner captures a spirit of what we have done at Walter Reed 
and all across our system to do a better job of meeting the 
needs of wounded warriors. The soldier in the picture is 
Sergeant Major Brent Jurgensen. He was twice badly wounded in 
combat in Iraq, and he is now the Sergeant Major for our 
Wounded Warrior Program. He is a great leader, and he is 
leading us and making sure that we do what we need to do, what 
our soldiers deserve in supporting them.
    We have made tremendous changes since the revelations at 
Walter Reed. I think the mission statement also captures the 
spirit of the change out there. The mission statement now of 
our soldiers who are wounded, who are under care throughout our 
system, ``I am a warrior in transition. My job is to heal, as I 
transition back to duty or continue serving the Nation as a 
veteran in my community. This is not a status but a mission. I 
will succeed in this mission because I am a warrior and I am 
Army-strong.'' That is the spirit that we are taking to serving 
the soldiers who are wounded. And across our entire system we 
are building these warrior transition units. We have made great 
steps forward in meeting the needs of those soldiers.
    I would like to switch now to an issue--and, Mr. Chairman, 
I have spoken with you about this one--one that has come up 
recently on our screen but one that poses great challenges for 
our Army. We have had contractors in the field since George 
Washington led our Army. But with the drawdown that we 
experienced in the 1990's, we have come to rely more heavily on 
contractors in the field. Right now, our force in Iraq is about 
55 percent soldiers and about 45 percent contractors, with 
contractors doing many of the jobs soldiers did in the past.
    And as we look to the future, an era of persistent conflict 
and our need to be able to deploy anywhere in the world 
whenever the Nation calls, we have to make sure that our 
contracting system is able to support soldiers, provide them 
the base support they need, transportation support they need, 
and any other services that we cannot provide organically 
through our Army.
    But we have lately discovered that we have some flaws in 
that system, and we have an aggressive criminal investigation 
effort to rout out those flaws. We, in the Army, are working to 
address the cultural failings that allow Army soldiers to make 
the decisions that they have made and violate their trust.
    But we also are looking to the future. And this conflict, 
six years of war, and anticipating this era of persistent 
conflict, has caused us to focus on our soldier support system. 
We have appointed a commission, under Dr. Jacques Gansler, to 
look at the future needs of our soldiers in combat anywhere in 
the world. And we will be coming back to you over the coming 
weeks with our plan, and look forward to working with you to 
make sure that we are properly organized, trained, and equipped 
to meet the soldiers' needs.
    Mr. Chairman, I thank you very much for the opportunity to 
appear before you today and, again, thank you for your support 
of soldiers. Thank you.
    [The prepared statement of Secretary Geren can be found in 
the Appendix on page 53.]
    The Chairman. Thank you, Secretary Geren.
    General Casey, this is your first appearance before us as 
Army Chief of Staff. We welcome you before us today, and we 
thank you for your service. You are recognized, General Casey, 
please.

 STATEMENT OF GEN. GEORGE W. CASEY, JR., USA, CHIEF OF STAFF, 
                           U.S. ARMY

    General Casey. Thank you, Mr. Chairman and members of the 
committee. And while I am more than willing to share credit for 
whose idea this hearing was, I do welcome the opportunity to 
come before you today and talk to you about what I have seen in 
my first almost six months on the job and the direction that 
the Secretary and I think we need to move the Army, with your 
help, over the next three or four years.
    As the Chairman said, our Nation has been at war for over 
six years. Our Army has been a leader on the front lines of 
this war and back here at home. And, over time, these 
operations have expanded in scope and duration, and, as a 
result, our all-volunteer force has been stretched and 
stressed. Over these last six years, Congress has responded to 
the Army's request for resources. And that kind of commitment 
to the Army, our soldiers, and their families is both necessary 
and deeply appreciated.
    We live in a world where global terrorism and extremist 
ideologies are real threats. And, as we look to the future, I 
believe that the next decades will be ones of what I call 
persistent conflict. And what I mean by that is a period of 
protracted confrontation among states, nonstates, and 
individual actors that are increasingly using and willing to 
use violence to achieve their political and ideological ends.
    And there are several emerging global trends that are 
likely to exacerbate this period of protracted confrontation.
    Just a few: globalization--now, clearly, globalization has 
positive impacts around the world but can also create have and 
have-not situations that can be exploited by extremist groups 
to undermine government in societies. Population growth and the 
youth bulge that accompanies that can increase opportunities 
for instability, radicalism, and extremism. Demand for energy, 
water, and food for growing populations will increase 
competition and possibly conflict. Climate change and natural 
disasters, as we have already seen, can cause humanitarian 
crises, population migrations and epidemic disease.
    And the two that worry me the most: The proliferation of 
weapons of mass destruction has the potential for catastrophic 
attacks that will be globally destabilizing and detrimental to 
global economic development. And, finally, failed or failing 
states that are unable or unwilling to maintain control over 
their territory; these can provide safe havens for terrorist 
organizations to export terror regionally or around the world.
    So, while analysts generally agree on those trends, they 
also agree that we will be unlikely to predict the time, 
location, or scope of coming conflicts. We do know, however, 
that the Army will remain central to our Nation's security and 
that we need agile forces that can rapidly adapt to unexpected 
circumstances.
    The Army has a vision to build those forces, and we are 
already executing it. We intend to transform the current force 
into a campaign-quality expeditionary force that is capable of 
supporting combatant commanders across the spectrum of 
conflict, from peacetime engagement to conventional war, in the 
21st century. That is what we are about.
    So, Mr. Chairman, as we look to that future, we do so with 
an Army that is already stretched by the impacts of six years 
of war. And while we remain a resilient, committed, 
professional force, today's Army, as Congressman Hunter said, 
is out of balance. The current demand for our forces exceeds 
the sustainable supply.
    We are consumed with meeting the demands of the current 
fight, and unable to provide ready forces as rapidly as 
necessary for other contingencies. Our reserve components are 
performing an operational role for which they were neither 
originally designed nor resourced. Our current operational 
requirements for forces and the limited periods at home between 
the deployments necessitate a focus on counterinsurgency 
training at the expense of training for the full spectrum of 
operations.
    Soldiers, family, support systems, and equipment, as the 
Chairman said, are stretched by the demands of these repeated 
deployments. Overall, we are consuming our readiness as fast as 
we can build it. But, with your help, we can act quickly to 
restore the balance and preserve the all-volunteer force, 
restore the necessary depth and breadth of Army capabilities, 
and build capacity for the future.
    Four imperatives will frame what I think we need to do here 
in the coming years, but implementing these imperatives will 
require several years, considerable resources, and sustained 
commitment by Congress and the American people.
    First imperative: We need to improve the manner in which we 
sustain the Army, soldiers, families, and civilians. The 
Secretary already talked a lot about what we think we need to 
do for families, and the importance of families in the 
readiness of the forces. But recruiting, training, and 
retaining our soldiers, the centerpiece of this force, can only 
be done for transforming our quality recruits into soldiers who 
are physically tough, mentally adaptive, and that live the 
warrior ethos. These warriors are our ultimate asymmetric 
advantage, the one thing that no enemy can duplicate now or in 
the future, and we need to keep them with us.
    I mentioned that we recognize a strain on families, and we 
also recognize that they play an increasing role in the 
readiness of this all-volunteer force. So we will ensure that 
their quality of life is commensurate with the quality of 
service that they provide.
    We will also ensure that our wounded warriors are cared for 
and reintegrated into the Army and society. And we will never 
forgot our moral obligation to the spouses and children and 
families who have lost soldiers since September 11th.
    So, first, sustain; second, prepare. We need to continue to 
prepare our forces for success in the current conflict.
    With your help, we have made great strides in equipping our 
soldiers, and we are continually adapting our training and 
equipment to keep pace with an evolving enemy. We remain 
committed to providing our deploying soldiers with the best 
available equipment to ensure that they maintain a 
technological advantage over an enemy that they face. And I 
will show you some of that here in a few minutes.
    We also will continue to provide tough, demanding training 
at home stations and in our combat training centers to give our 
soldiers and leaders the confidence that they need to succeed 
in these complex environments. Military success in this war is 
tied to the capabilities of our leaders and soldiers, and we 
will not fail to prepare them for success.
    Third, the Chairman mentioned reset, that we must continue 
to reset our units and to rebuild the readiness consumed in 
operations to prepare them for future deployment and future 
contingencies.
    And the notion that the Chairman mentioned about resetting 
for the future rather than resetting for the past is exactly 
the track that we are on. Since 2003, equipment has been used 
at a rate of over five times that program in harsh, demanding 
desert conditions.
    In addition to fixing, replacing, and upgrading our 
equipment and retraining for future missions, we also have to 
revitalize our soldiers and families by providing them the time 
and the opportunity to recover from the cumulative effects of 
sustained operations.
    Resetting our force is critical to restoring the readiness 
that you spoke about, Mr. Chairman. And reset must continue as 
long as we have forces deployed and for several years 
thereafter. The commitment to providing resources to reset our 
forces is what is essential to restoring the strategic depth 
and flexibility to the country.
    Last, transform: We must transform our Army to meet the 
demands of the 21st century. Transformation for us is a 
holistic effort to adapt how we fight, train, modernize, 
develop leaders, base our forces and support our soldiers' 
families and civilians. It is a journey for us, not a 
destination.
    Let me just say a few words about one element of our 
transformation, and that is modernization. We believe we must 
continually modernize our forces to put our Cold War formations 
and systems behind us and to provide our soldiers with a 
decisive advantage over any enemy that they face.
    With your help, we will continue to rapidly field the best, 
new equipment to our fighting forces, to upgrade and modernize 
existing combat and support systems, to incorporate new 
technologies spun out of Future Combat Systems research and 
development, and, finally, to begin to field the Future Combat 
Systems brigade combat teams themselves.
    We are ultimately working toward an agile, globally 
responsive Army that is enhanced by modern networks, 
surveillance sensors, precision weapons, and platforms that are 
lighter, less logistics-dependent, and less manpower-intensive. 
It is a truly 21st-century force.
    So four imperatives, Mr. Chairman: sustain, prepare, reset, 
and transform.
    Each of these imperatives requires resources. And at the 
start of fiscal year 2007, Congress, as Congressman Hunter 
mentioned, provided the Army with sufficient base and 
supplemental funding to support the war, fund reset, and to 
maintain and train the force. With the start of fiscal year 
2008 fast approaching, it is imperative that we work together 
to ensure that funding is once again available at the start of 
the year. This is essential to maintain the momentum to put us 
back in balance. Since it looks like we will start fiscal year 
2008 under a continuing resolution, I ask, Mr. Chairman, that 
Congress provide the necessary resources and authorities to 
maintain this momentum.
    In closing, your Army is the best in the world at what it 
does. We are that way because of our values, because of our 
ethos, because of our people and because of your support. We 
have magnificent soldiers, leaders, and civilians. They are 
ordinary people who are doing extraordinary things for our 
country. They have made hard sacrifices, and they will make 
more. We have lost over 2,400 soldiers and had over 20,000 
wounded, a quarter of those from reserve components. We have 
also awarded a Medal of Honor, six Distinguished Service Cross 
medals, over 260 Silver Stars and 6,700 other awards for valor.
    But it will require more than the courage and valor of our 
soldiers to ensure that our Army can continue to fight and win 
the Nation's wars in an era of persistent conflict. It will 
require clear recognition by national leaders like yourselves 
of the threats and challenges that America faces in the years 
ahead and of the need to ensure that our armed forces are 
prepared to meet them. I am optimistic that we can meet these 
challenges together.
    Thank you for your attention, Mr. Chairman, members of the 
committee.
    If you would give me five minutes, I would just like to 
give you a quick show-and-tell here on some of the equipment 
that, one, has come out of the Future Combat Systems research 
and development effort and that is in Iraq now, and to show you 
how we continue, again, with your support, to improve what we 
are doing for our soldiers.
    And on Tuesday, we issued the one-millionth set of 
equipment to soldiers. When we started out in 2002, there were 
15 items, and today there are 84 items. And I will show you 
those. But, first, let me just show you a couple----
    The Chairman. General, let me say thank you for limiting it 
to five minutes. We know that you must leave here, at the very 
latest, at 6:15. And we appreciate you extending your leave 
time.
    And I would like to announce we will have a five-minute 
break, no longer than that, at 5 o'clock.
    General, you are recognized.
    General Casey. Okay. If you just look over here to the 
right, I would like to just point out three systems that are in 
Iraq now that came out of Future Combat Systems research and 
development.
    The first one is the Micro Air Vehicle, we call it. It is 
also called the ``beer keg unmanned aerial vehicle (UAV)'' or 
the ``scrubbing bubble.'' But this is a squad- and platoon-
level unmanned vehicle that you can run down an alley, look 
around the corner, look up on a roof and see what is up there. 
I think you can see the great potential that has for our 
soldiers. There are 50 of them in Iraq right now with the 25th 
Infantry.
    Second, I will point out the Small Unmanned Ground Vehicle. 
This is a robot that has already been used about 30,000 times, 
and it gets credit for diffusing 11,000 improvised explosive 
devices (IEDs). There are 5,000 of these in-theater. And you 
can also see that sending a robot up to diffuse an IED is much 
safer than having a soldier do it.
    Hold up one of those unattended ground sensors, if you 
would.
    These are critical for us. A soldier can take this and put 
it in a building or along a road and watch it back in his base, 
so we don't have to leave soldiers out inside buildings because 
they can watch them through these different cameras, and that 
is a great capability.
    Again, those first three came out of Future Combat Systems 
research and development, so we are reaping the benefits of 
that now.
    Point to the JTRS, Joint Tactical Radio System.
    Now, while this is not fielded, this is the system on which 
we will provide voice, data, and video to individual vehicles 
and individual soldiers. So if you think about that Verizon 
commercial where he has the army behind him, this is the system 
that is going to bring that level of knowledge down to the 
individual soldier.
    [The information referred to can be found in the Appendix 
on page 75.]
    General Casey. And last, Sergeant Cantrell, will you stand 
up, please?
    This is Sergeant Joshua Cantrell. He has been sitting here 
patiently and ready to go take his stuff off. But this is the 
Rapid Field Initiative equipment that we have been issuing to 
our soldiers and improving over time.
    I am going to ask Frances Aden here, from our project 
manager soldier, to talk a little bit about where we are with 
this.
    Mr. Aden. Sir, we have made this system a lot lighter than 
the current body armor that we have right now. We added an 
extremely important feature to it where it will allow a soldier 
to quickly toss the system in case of emergency, vehicle fire, 
rollover. We have added an emergency quick-release to the 
system that the soldier is going to demonstrate right now, only 
to be used in the case of emergency: vehicle rollover, a fire 
or a drowning.
    Go ahead and execute.
    And the system just falls apart, and the soldier is able to 
get out of the vehicle in case of emergency.
    General Casey. This system is now the second generation of 
individual body armor that we fielded. And so we are continuing 
to improve what we are giving to the soldiers over time.
    So that is probably less than five minutes. I yield the 
balance of my time back to the Chair here.
    [The prepared statement of General Casey can be found in 
the Appendix on page 64.]
    The Chairman. General, we thank you, sir, and we thank your 
soldiers so much for being with us.
    I just have one question, General. I asked a question of 
your predecessor back in January, and I will ask you, General 
Casey, today. Are you comfortable with the Army's readiness for 
an unexpected serious military challenge?
    General Casey. As I mentioned in my opening statement, Mr. 
Chairman, I am not comfortable that we could respond as rapidly 
as we would like to. It would take us time to reverse 
directions, especially for a conventional threat, to train up 
to that level.
    But I will tell you that this is a combat-seasoned force 
that should not be taken lightly in its ability to adapt 
quickly. But it would still take longer than I am comfortable 
with.
    The Chairman. Thank you so much.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    And, again, gentlemen, thanks for appearing before us 
today.
    You know, last year, on the reset piece, you folks told us 
back in June that you were going to have problems with funding 
for reset. And so we called you in, we had hearings, some 
classified, some open, and you laid out the exact dollar 
amount. And I can't remember the exact dollar amount, but it 
was--I thought it was $18 billion. Is that right?
    Secretary Geren. $17.1 billion.
    Mr. Hunter. And we had a subsequent hearing, because I 
believe in November we looked at the amount that had actually 
been executed at that point and it was something like $3 
billion. It was a fairly small amount of that money. And so the 
question became--because we had checked, the committee had sent 
out teams to the depots to ensure that we had capacity when we 
marked up the $18 billion-plus to make sure we had capacity in 
the depots to, in fact, do the work that you needed the money 
for. And there was a pretty good degree of head room there, 
quite a bit of head room, and apparent capacity.
    You had a few--we had some problems, I know, with getting 
the so-called carcasses of vehicles back in, the ones that were 
being reset, that were being worked on, flowing them back in 
the country to make sure that they could be refurbished.
    How is that piece of reset going? Have we accelerated that 
process, and is that smoother now? Or is it still going at a 
fairly slow rate? What is your take on that?
    Secretary Geren. We are operating the depots right now not 
at max capacity, but we are operating them at optimal capacity 
considering the load that we have to flow through them. Because 
of the surge, we don't have as much in the queue, in reset, as 
we would have expected, had it not been for the surge. Next 
year, a lot of that equipment will be coming home.
    But we have committed 98 percent, I believe is what I was 
recently briefed, of all those funds. We have reset 25 brigades 
through the depots over the last year. The program is running 
well. We have good accountability for the system. And we 
believe that we are operating at the optimal level, not maximum 
capacity level. Next year, the system will have a greater 
demand on it based on what comes back from theater.
    General Casey. If I can just add, the reason that we were 
able to do that is because of what I said in my opening 
testimony. We had the resources from Congress at the beginning 
of the year, and we had resources for operations and 
maintenance and procurement.
    The other thing I would add, Congressman, is not only are 
the depots operating at increased capacity, they are operating 
more and more efficiently. And they are being recognized 
nationally for their efficiency efforts. There is an award 
called the Shingo award. It is a public-sector award for lean 
manufacturing. In 2005, none of our depots won one of those 
awards. This year, 12 did. And so, we are operating with the 
money that you are giving us more efficiently here.
    So the reset process is going well. If we continue to get 
the resources in a timely fashion, we will maintain the 
momentum.
    Secretary Geren. Let me mention one other thing quickly on 
this point. Not only resources are important, but authorities 
are important. You all will likely be funding us with a 
continuing resolution (CR). And not only do we need the money, 
but we also need the procurement authority in order to procure 
long-lead items.
    One of the reasons it worked so well last year: We had the 
money and authorities ahead of time; you could purchase the 
long-lead items that take months, in some cases, to get the 
depots. If you do a CR, we ask that you give special 
consideration to that need, not only the money but the 
authorities to procure the long-lead items.
    Mr. Hunter. Thank you, gentlemen. I think it is smart of 
you to let us know early we need to keep it flowing, and keep 
it flowing with the authorities.
    And, Mr. Chairman, I think it is wise to have this hearing 
at this time, and I think it is incumbent upon us to try to 
make these bulky packages that are tough to pull through the 
political wickets, get them through the wickets, get the money 
going and to keep the authority going and to keep the reset 
going.
    Thank you very much.
    The Chairman. Thank the gentleman from California.
    Mr. Spratt from South Carolina.
    Mr. Spratt. Thank you both for your testimony.
    Mr. Secretary, can I get it clear, again, what the reset 
costs are likely to be on an annual basis, as the war goes on? 
And then afterwards, after the war has faded down, what is the 
likely cost going to be over a five-year period of time?
    Secretary Geren. I don't have the five-year number. For 
next year, we have budgeted $13.5 billion. And I will have to 
get you the outyears. I will provide that to you for the 
record. But $13 billion for 2008.
    [The information referred to can be found in the Appendix 
on page 81.]
    Mr. Spratt. General Casey, you refer repeatedly in your 
testimony to stress and strain on the standing Army. Would you 
tell us how exactly how, in your perception, this stress and 
strain is manifested? Family problems, lack of military 
proficiency?
    General Casey. It is certainly not lack of military 
proficiency.
    What we are seeing is, one, the families are the most 
brittle element of the force. There is no question about it. My 
wife and I traveled around and talked to Army families all over 
the world in the first four months, and it was clear to us that 
the families are affected.
    And it is a cumulative effect. One spouse stood up at Fort 
Bragg and said, ``You know, General, it is not the same, 
running a family readiness group, for the second deployment as 
it was for the first, and for the third deployment as it was 
for the second.'' And people are getting stretched. That is 
probably the most significant stressor that we see.
    The other stressor, as I mentioned in my opening statement, 
the fact that we are only home for 12 months. And so, we can 
only focus on the counterinsurgency aspects of the coming 
mission, and I don't have the time to train for full-spectrum 
operation. So those skills will atrophy over time. We are not 
in a bad point right now, as I said, because of the combat 
experience of our force, but that will atrophy over time.
    Mr. Spratt. I had a visit from some spouses recently, 
wives, who felt that the family wasn't adequately involved, 
particularly with patients who have symptoms of post-traumatic 
stress disorder (PTSD). That it was a family problem as they 
came home, and the identification of these problems and making 
the children included to understand what was going on was 
critically important. They simply didn't feel that they were 
getting that from the active forces or from the Department of 
Veterans Affairs (VA).
    General Casey. We recognize that, as well. And about 
probably six weeks ago, we started a chain teaching program on 
PTSD and mild traumatic brain injury. And there was a family 
version, and there was a soldier version. And the intent was to 
have each member of the chain of command teach this to his 
subordinates so that we, one, increased awareness and, two, 
started working on eliminating the stigma that is attached to 
seeking mental health care. So that is working its way to them.
    Now, we are also challenged by the lack of availability of 
mental health specialists, both inside the Army--I think we are 
under 80 percent--and in the civil sector supporting our bases. 
And we are taking measures to increase the number of mental 
health specialists that are available to soldiers and families.
    Mr. Spratt. One last question, a slightly different topic: 
the mine resistant ambush protected vehicle (MRAP). The Joint 
Requirements Oversight Council (JROC) has just approved a 
substantial increase in the requirement for the MRAP. I believe 
the additional costs could be as much as $16 billion. How do 
you assess the MRAP? Given the threat we have gotten, is it the 
answer to the problem with IEDs?
    General Casey. There is no panacea for IEDs, Congressman. 
The MRAP will provide our soldiers increased protection against 
particularly deeply buried IEDs. And so, there will be an 
enhanced level of protection with the MRAP vehicle, but it is 
not a panacea. And I think you have been told before that you 
must attack the whole IED system and defeat the system, not 
just protect yourself against the blast. But it will be an 
enhancement.
    Mr. Spratt. Thank you, sir.
    The Chairman. The gentleman from New Jersey, Mr. Saxton.
    Mr. Saxton. Thank you, Mr. Chairman.
    Mr. Chairman, I would like to follow up on what I thought 
was an excellent opening statement that you gave here a few 
minutes ago.
    Let me just begin by saying I came across a report from The 
Heritage Foundation here recently, entitled, ``Four Percent for 
Freedom: The Need to Invest More in Defense.'' And if I may 
quote from this, ``The United States military has reached a 
crossroads. In many respects, American armed forces are better 
off than ever before. The all-volunteer force is a proven, 
mature, and successful model. America is protected by the 
finest service men and women in history, who employ the most 
advanced arsenal on the planet. Yet the number, size, and 
duration of military deployments have increased dramatically 
since the end of the Cold War, while defense spending has 
remained at a historically low level.
    It is clear if a clearly delineated policy is not 
established now to ensure stable funding, the military risks 
becoming a hollow force. A hollow force rings loud and clear in 
many of our ears. Historically, we have had a pretty good 
record on defense spending. During World War II, we spent just 
under 35 percent of gross domestic product (GDP). During Korea, 
we spent just under 12 percent of GDP. During Vietnam, it was 
just under 9 percent. And of course, during the 1970's, we 
developed what is known today as the hollow force. We built 
back up to six percent during the Reagan buildup. In 1991, 
during the first Gulf war, we were 4.6 percent. And today, 
according to this Heritage Foundation report, we are at 3.8 
percent.
    They suggest that robust and consistent funding of the 
military is fully within America's capability. Currently, the 
U.S. spends only 3.8 percent of GDP on the core defense budget. 
That is far lower than during the Cold War and almost a full 
percentage point lower than the hollow-force era after Vietnam.
    I guess my question is this. They go on to suggest here 
that we ought to have a stable funding level of 4 percent of 
GDP. If we were to boost defense funding along the lines as 
suggested here or along some other line that provided for a 
significant $25 billion to $35 billion on an annual basis, my 
question is, Mr. Secretary and General, where would be the 
prime areas for the Army to invest their share of that 
increase?
    Secretary Geren. Each year, at the request of the 
committee, we provide a list of unfunded initiatives for the 
Army, and that would be a place to start.
    I think one of the most important things for the Army is 
predictable funding. An organization of this size has a very 
difficult time managing rapid radical changes in either the 
timing or the level of funding. And if I look to the future, 
consistent funding and predictable funding would be one of the 
most important things that we could ask for. It would allow the 
Army to plan, allow the Army to look down the road.
    And it is not to say that we can predict what is going to 
happen three years from now, five years from now; and we are 
always having to tweak budgets on the margins. But in the time 
that I have been involved with the Army, the predictability of 
funding and the lack of predictability, frankly, has posed some 
of our greatest challenges in managing our resources.
    But as far as additional resources, I think we would 
probably do the same things sooner, rather than do many 
additional things.
    Chief.
    General Casey. I don't really have much to add to that. 
Equipment is probably the area that would benefit the most from 
additional resources right now. And, as the Secretary said, it 
would allow us to do things that we know we need to do sooner.
    Mr. Saxton. Like the Chairman, I am very concerned about 
readiness. This report also points out some patterns in defense 
spending that this committee and others in the Government are 
responsible for. The first example it gives is the Pentagon 
purchased, on an average, 78 scout and attack helicopters each 
year from 1975 to 1990, but only seven each year from 1991 to 
2000. Second, an average of 238 Air Force fighters and five 
tanker aircraft were purchased between 1995 and 1990, compared 
to only 37 from 1991 to 2000. And the third example they give 
is the average age of the Air Force in 1993 was just nine 
years. The average aircraft age today in the Air Force is 24 
years.
    And so, Mr. Chairman, I am concerned, like you. I think we 
have some challenges ahead of us, particularly given the 
persistent conflict that looms in our future.
    Thank you.
    The Chairman. Thank the gentleman.
    The gentleman from Texas, Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    I want to welcome our witnesses today. It is good to see my 
good friend who was a very valuable member of the Texas 
delegation, congressional delegation, for many years and now to 
see him as Secretary of the Army.
    And, General Casey, Chief, good to see you. And we thank 
you for your service, for the good work.
    One of the things that worries me is the prepositioning 
stocks. Over the past several years, the Army has drawn much of 
the equipment that was in the prepositioning stocks. This 
equipment has gone to support ongoing combat operations and 
also to fill our shortages in units preparing for deployment.
    The Army has indicated it will be soon sometime before the 
stocks are restored. This is concerning, because the combatant 
commander expects to use this equipment to respond to emerging 
contingencies in the area of operations.
    What actions has the Army taken to mitigate the strategic 
risk of having withdrawn equipment from the stocks? And when 
will the preposition stock be fully restored?
    I know that a few moments ago you said that we might be 
able to respond slowly. But what about the equipment when we 
have to respond? And this really worries me, because this is 
part of my Subcommittee on Readiness. When we look at the 
resetting and when we look at the lack of equipment that we 
have, this really worries our Subcommittee on Readiness and, 
overall, this committee.
    So how do we respond to that? And maybe both of you can 
help me.
    General Casey. At this level of classification, 
Congressman, I think it is fair to say that we have consumed a 
good portion of our preposition stocks, and we recognize, as do 
you, that they need to be replenished.
    A lot of that equipment has been sent in with the surge 
forces, and the expectation is that it will come out with the 
surge forces, need to be reset and then reconstituted. And I 
think there is a supplemental addendum coming up here, and a 
portion of the money in that is to begin the replenishment of 
our Army prepositioned stocks (APS).
    I share your concern, but, again, all the preposition 
stocks are not consumed. We still have some flexibility. But as 
you said, we need to replace that to give back our strategic 
flexibility, which is exactly what I talked about in my opening 
statement.
    Mr. Secretary.
    Secretary Geren. I don't have anything to add.
    Mr. Ortiz. I know that there has been talk about, both from 
the Administration and from Members of Congress, about 
redeploying and withdrawing.
    We want to be sure that if we were to do that, that we can 
do it in a way that it would protect our soldiers as we either 
do one or the other. And, of course. I hope that we can win 
this war. I know that we cannot predict any future conflict, 
but we must be ready just in case.
    And I just wanted to see, Mr. Chairman, if later on we can 
have--because there are a lot of things that worry me. The 
things with Blackwater. I know that between the State 
Department and Army, we are paying about $1 billion in 
contracting out. We were just wondering the other day, I wonder 
how much $1 billion will buy as far as soldiers that we can put 
in? I know that we might have to visit end strength, and I 
don't know if we are ready to revisit that or not. But 
sometimes I hear different testimony about the need for more 
soldiers, and I just hope that one of these days we can have a 
hearing so that we can all be singing from the same page so 
that we can work toward having a victory in Iraq.
    Mr. Chairman, thank you so much.
    The Chairman. I thank the gentleman. The gentleman from New 
York, Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    Mr. Secretary, Chief, welcome. As I have stated in other 
forums and I will repeat here today: As a Nation, and certainly 
as a committee, we are so fortunate to have great leaders like 
you in such challenging times, and I compliment you for 
stepping forward and actually asking for a hearing. I am not 
sure what that says about your sanity, but it says a great deal 
about your bravery and about your concern about the men and 
women.
    General Casey. As I said, I am willing to share credit for 
that.
    Mr. McHugh. Fair enough, Chief.
    I will tell you, like my friend from Texas who just spoke, 
the gentleman from New Jersey who spoke just before him, and of 
course the Chairman of the full committee, I too am concerned 
about readiness. I know you both are as well. I would tell you, 
Chief, in reading your written testimony, your comment that, 
quote, ``The current demand for our forces exceeds the 
sustainable supply. We are consumed with meeting the demands of 
the current fight and are unable to provide ready forces as 
rapidly as necessary for other potential contingencies'' is 
just downright frightening.
    As I said to General Petraeus when I had a chance to visit 
him over the August recess in Baghdad, it is awfully 
disconcerting to know that as we find ourselves in such a 
conflict in Iraq, that one of the key inputs of our strategy 
has to be the sustainability and the size of the force.
    However, I don't believe the way you win an unnamed war is 
to lose the one you know you are in. So that always brings me 
back to end strength. And I want to pay you all a compliment. 
When we had a Personnel Subcommittee hearing a few months ago, 
it sure did not look like you were going to be able to set your 
recruiting goal of 518,400 new recruits. That was your Army 
objective that went beyond end strength to a grow goal because 
we were increasing end strength. And from what I see in the 
most recent data, you are going to make that figure and, in 
fact, you are going to go a bit beyond that 519,000.
    Congratulations on that. That is a real tribute to your 
recognition of the importance of recruiting. It certainly keeps 
you on schedule to the 2012 date of increasing end strength to 
547,000 in the active Army.
    And the question I simply have now as we go forward, how 
does this committee and this Congress provide you with the 
tools, with the resources necessary to continue that successful 
recruiting in what admittedly is a very difficult recruiting 
environment?
    Secretary Geren. It is a tough recruiting environment and 
we are on track. The final numbers are not in, but we are 
projecting that we will meet the recruiting goals. Active and 
Reserves, Guard will fall a tiny bit short but will still meet 
their end strength numbers. The Army when you consider active, 
Guard, and Reserve, we recruit a force the size of the Marine 
Corps every year, and it is a tribute to the young men and 
women of this country that in the middle of a war we have that 
many people step up, raise their right hand, and join the 
regular Army knowing that they are very likely to be sent to 
conflict.
    We have a strong economy and that makes recruiting 
difficult. The recruiting bonuses that you all have authorized 
for us have helped us compete in that environment. Some of the 
retention bonuses--when we look to growing the Army, adding the 
74,000 that we plan across the three services, the retention 
issue is a big part of that growth. And the different 
initiatives that we have to retain soldiers, these highly 
qualified soldiers that have many attractive offers on the 
outside, keep them in the service. Meet the needs of their 
families. So part of it is financial.
    Also as a Nation, and as Members of Congress, your support 
for the Army, your support for our forces in harm's way sends a 
very important signal to moms and dads that, yeah, I am going 
to give you the most valuable thing in my life to my military. 
That kind of statement from our leaders sets a tone that allows 
us to recruit in this difficult environment.
    But we have to continue to fine-tune the effort, fine-tune 
the bonuses, fine-tune the approaches. We are working with the 
Guard on an active first program. As you are probably aware, 
the Guard has been very innovative in their recruiting. They 
have tried to turn every Guard a recruiter. We are going to be 
partnering with the Guard this coming fiscal year and give us 
the strength of their reach into the communities. It is a 
challenge but American men and women are stepping up and 
meeting the challenge.
    The Chairman. The gentleman from Texas, Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman. And let me add my 
congratulations to you, Mr. Secretary. And also thank you and 
General Casey for your service.
    First let me thank you for bringing in the Future Combat 
Systems gear here, because last year we actually had some of 
these items tested at Fort Bliss and the soldiers gave the 
ultimate endorsement, which was they wanted to take this 
equipment back with them when they redeployed back to Iraq. So 
we appreciate giving Members of Congress an opportunity to see 
the products of Army transformation and Future Combat Systems 
here. And I thank all the soldiers for being here with us as 
well.
    I was curious, General Casey, I looked back at your remarks 
from your change of command ceremony earlier this year. I know 
that both our Chairman and Mr. Saxton were in attendance. You 
said at the time, ``We are locked today in a war against the 
global extremist network that is fixed on defeating the United 
States and destroying our way of life. This enemy will not go 
away nor will it give up easily, and the next decade is likely 
to be one of persistent conflict,'' as you said here today. You 
finished it up by saying, ``We are engaged in a long war.''
    I know that I speak for everyone in this room that agrees 
that we need to provide all our soldiers and their families 
with everything that they need to achieve their mission, come 
home safely, and have a good home to come to. As has been 
stated here by a number of my colleagues, it is a costly and 
intensive endeavor.
    Perhaps my question is: Can you help us understand how the 
Army is balancing the present and pressing need, urgent need, 
to take care of those engaged in combat, and, at the same time, 
looking long term at preparing for and modernizing our 
equipment and our ability to prepare for future conflicts?
    It is something that we as a committee--as I think you have 
heard here today and before--really wrestle with. You have 
heard concerns about readiness. You have heard concerns to make 
sure that we take care of our wounded. Also our military 
families. Can you give us a perspective from both you, the 
Secretary's viewpoint, and you, General Casey, as well?
    Secretary Geren. Striking the right balance, as you 
describe, is very difficult. But we feel that the budget that 
we have submitted to the Congress does strike the right balance 
between the needs of the future and the needs of the present. 
And it is not to say that we don't have to make changes along 
the way, and we do. We are constantly working within that 
budget to meet needs as they are identified. But our 
modernization program, our most significant modernization 
program in 30 years, the Future Combat System over this 5 
years' Defense budget will take less than 5 percent of the 
budget. We believe that is an affordable investment in the 
future. It is an investment that we need to make. It is hard to 
make right now.
    Anytime you are engaged in a conflict, as we are, there are 
immediate needs, and the Congress has been very supportive in 
two supplementals. We have been able to meet those immediate 
needs. But the Future Combat System is our investment in the 
future. We never want to send our soldiers into a fair fight. 
We believe the Future Combat System is going to prepare 
soldiers for those conflicts in the future.
    General Casey. Congressman, as I went around before I took 
over this job talking to former chiefs, every one of them said, 
Chief, never forget you are the future's guy. Everybody will 
get so consumed by the current requirements that they will take 
their eye off the ball, and your commitment to the country is 
to deliver the type of Army that the Nation needs down the road 
so we don't run into situations like Task Force Smith, as the 
Chairman mentioned.
    And so what I laid out today in my testimony--sustain, 
prepare, reset, and transform--those are the four things that 
we are working to balance, to bring ourselves back into balance 
here in the next three or four years. Thank you.
    Mr. Reyes. Thank you, thank you, Mr. Chairman.
    The Chairman. Mr. Bartlett.
    Mr. Bartlett. Thank you both very much for your testimony 
and for your service.
    Our staff always prepares for us a memorandum for these 
hearings. I wanted to ask you a couple of questions related to 
this statement that has been prepared for us. It says that the 
Army is reporting that training, equipping, and personnel 
readiness levels for nondeployed forces have fallen to 
unprecedented lows. Is that true?
    Secretary Geren. The readiness of the forces that we deploy 
to combat is at the highest levels. The soldiers----
    Mr. Bartlett. But this addresses the nondeployed forces 
have fallen into unprecedented lows. The tip of the spear is 
very sharp, that is true. I just wanted to see if you 
identified yourself with this statement.
    Secretary Geren. You used the term ``unprecedented.'' I 
don't choose that word. But I will say for the deploys and 
next-to-deploys, we provide soldiers that are prepared for this 
conflict. For the soldiers that are not preparing to deploy, 
when you look at the total range of strategic needs that the 
Army could be asked to meet, our readiness is not at the levels 
that we want it to be. We need full-spectrum readiness, and the 
readiness figures that are referred to in that document are 
talking about our ability to respond to the full range of 
strategic challenges of our country, and we do not--at present 
time we could not offer the full spectrum of readiness that is 
our goal.
    Mr. Bartlett. I think ``unprecedented'' to most people 
would mean lowest ever. And if that is true or comes close to 
being true, we really need to be addressing that problem, don't 
we?
    Secretary Geren. Addressing the readiness challenge is a 
very high priority for us, Congressman. And we continue to 
invest to try to achieve greater spectrum or fuller spectrum of 
readiness. But when you are in a fight as we are, resources are 
devoted to meeting the needs of that current fight. But 
continuing to reinvest in the future and making sure that we do 
have a full-spectrum trained force is a challenge. And that is 
an area that we need to work with the Congress and we need to 
continue to invest to improve in that area.
    Mr. Bartlett. This staff report goes on to talk about the 
operational risk associated with reduced equipment readiness 
for units in the strategic base. And then it makes this 
observation: This risk is evident in the degraded readiness 
posture of ground units not currently deployed in depleted 
prepositioned war stocks and in National Guard units who do not 
have all the equipment needed for training.
    This fairly represents the factors that produced this state 
of unreadiness?
    Secretary Geren. Well, you noted in your--the parts you 
read about the National Guard, I want to make sure that this is 
properly understood. Before a National Guard soldier deploys--
and the soldier will not deploy unless he is certified as ready 
and fully trained--they do not have all the equipment at their 
home station to be able to do all the training there, and as 
they move closer to their deployment point they are--equipment 
is made available to them and they are trained. And before they 
leave, they have the training that has prepared them to go, and 
they will be certified as ready.
    But we do not have the Guard fully equipped. In fact over 
these 5 years, 2005 to 2013, we are putting nearly $40 billion 
worth of investment in Guard equipment. In the next 2 years we 
have $13 billion in investment in Guard equipment. We are not 
where we want to be with investment in Guard equipment, but we 
are improving and we are giving them, across the whole range of 
equipment, the top-of-the-line equipment, whether it is trucks, 
helicopters, aircraft. We are making an unprecedented 
investment in the Guard.
    Mr. Bartlett. I read these statements because I thought it 
was important for the American public to know the assessment 
that has been made by our professional staff who are generally 
right on in their assessment of these things.
    And talking about end strength, it notes that in 2006 the 
Army failed in all three of its categories to meet the 
requirements. Failed particularly in Army Reserves. There are 
obviously three things that we could do to fix this, in 
addition to increased aggressiveness which we are doing in 
recruiting. One is that we might turn to a draft. A second is 
that we could reduce our use of the forces so that we wouldn't 
have to be recruiting more. And, third, and this is maybe the 
most important one, we could reconfigure our Army.
    It is obvious today that our Army cannot fight without 
Guard and Reserve. Many of the skills for fighting are resident 
only in the Guard and Reserve. And I noted the most critical 
shortfall was in the Army Reserve. We need to address this 
challenge to see which of these routes that we will be able to 
follow in the future to fix the problem.
    I thank you all.
    General Casey. Mr. Chairman, if I could make one short 
comment for Congressman Bartlett. When I listened to the words 
you read from the staff document, that to me sounded like what 
I was saying: We are out of balance. And that is what I 
described in my testimony. And that is what last year Congress 
began to assist us in fixing. And the $17 billion for reset has 
already started to show an impact.
    But the challenge you have is that it takes two years, once 
we get the money, to get equipment in the units. And so as 
these things get out of balance, we can't snap our fingers and 
put them back in balance. It takes time. We have identified it 
and we are moving out with your support.
    The Chairman. I thank the gentleman.
    Before I call on Dr. Snyder, who, by the way, celebrates 
his birthday today and we wish him happy birthday tomorrow.
    Dr. Snyder. Tomorrow. Don't rush it, Mr. Chairman.
    The Chairman. We will be glad to have another hearing 
tomorrow to officially compliment you.
    Before I call on you, Dr. Snyder, let me--General, I know 
of your sense of military history. Reflecting on the words of 
Major General Leonard Wood in 1921 about the unpreparedness of 
our Nation.
    Reflecting on what happened in 1950 in Korea and the Pusan 
perimeter and the Task Force Smith, reflecting on what General 
``Shy'' Meyer, your predecessor chief of staff said in 1979 
that we have a hollow Army, reflecting on your predecessor Pete 
Schoomaker in January of this year telling us he was 
uncomfortable with the readiness of our Army, how can we 
restore that readiness that we need to deter or to prevail 
should the unexpected happen?
    General Casey. Sustain, prepare, reset, and transform. And 
work in partnership with us to make the resources available to 
allow us to do that on the timelines. And I believe we can put 
this back in balance in three or four years, but it is going to 
take that long.
    The Chairman. Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here. You are referred to as 
the future's guy, General Casey, and I have several questions 
that I wanted to ask. I will ask them quick, if you would give 
me quick answers.
    As you look ahead to the future and your putting together 
your numbers what level of forces we need, we currently 
probably have in the range of 30- to 40,000 contractors in Iraq 
or Afghanistan that are involved in security. And if they 
weren't there, probably we would have to have additional 
uniform military people.
    As you are looking ahead to your numbers, do your numbers 
include that there will be a significant contractor security 
force, or are we looking to where we are not going to allow 
those kinds of contractors in the future? Or is that not a 
consideration at this time?
    General Casey. In the work that I am doing right now, I am 
not looking at replacing security contractors as an element 
that we deal with. So I am not looking to increase Army force 
structure to provide personal security detachments for 
different elements.
    Dr. Snyder. So if we were to reach a point as a Congress or 
military that we decided that the detriments outweighed the 
benefit to have a contractor force, that would put more 
pressure on the work that you are trying to do to get the force 
where it ought to be?
    General Casey. It would certainly add another element. And 
I would just say, if I could, I think the estimates of 30- to 
40,000 is probably high. I think it is probably in the range of 
7- or 8,000. But I don't think anyone really knows.
    Dr. Snyder. That is one of the issues, isn't it.
    My second question, I thought you had a very good written 
statement about looking ahead at some of the issues and the 
tensions that will lead to future conflicts. But you talked 
about an enemy being immersed in populations. One of my 
concerns for some years that I don't think that we meet very 
well is the foreign language skills of our military people. And 
I have had some folks tell me that one of the reasons is that 
the leadership in the military, they have never been expected 
to have much in the way of foreign language skills. That 
because of that, they are not going to require that for their 
juniors down below to have foreign language skills. And the 
result of that is that every time we have a war in a new area, 
we are scrambling around running classified ads, trying to find 
interpreters and people that we cannot get security clearances 
on.
    You are citing that that is the wars of the future. 
Secretary Geren is talking about we are going to be in 
persistent conflict. Why are we not starting foreign language 
skills in boot camp from day one and say, an hour of day for 
the rest of your military career we are going to reach this 
level of proficiency. Yours is Farsi, whatever the other 
languages are. Why aren't we doing that?
    Lack of interpreters is a big problem. The lack of cultural 
sensitivity is a big problem. As you are looking ahead to the 
future, are we looking to doing more of that?
    General Casey. We are, Congressman. And I will tell you we 
draw our soldiers from the society. My take is our society is 
fairly insular anyway. And so that is where we start. But 
clearly we need several levels of language proficiency, one 
area for our foreign area officers and for our special forces 
that interact with other population. Then there is another 
level that I call operational language, where we can send folks 
to short-term school and give them some incentives to pick up 
the language for the mission that they are in.
    Dr. Snyder. Anyway I will finish with that point. But we 
are always running behind if we do it that way. We will always 
be behind. And being able to ask somebody, Which way does that 
road go or where is the bathroom is not the kind of foreign 
language proficiency that we need to avoid the problems that we 
have.
    My third question is you and I talked about this the other 
night. Has there been consideration as you are looking ahead as 
to what the role of the Guard is versus active component? You 
and I have talked about we have 26-, 27,000 troops in Korea. 
Has there been consideration to look at some of these missions 
around the globe and saying, Why don't we let almost that 
entire South Korean mission be Reserve component? It is the 
kind of mission where the turnover probably does not matter 
that much. We could make the rotations much shorter instead of 
a year long.
    Do you give that kind of consideration? Seems like we have 
done the South Korean mission about the same way for some 
decades now. Is that something you all are looking at?
    General Casey. Right after dinner we started looking at it.
    Dr. Snyder. That is a good enough answer.
    General Casey. As you know, we are already using the Guard 
in rotation for missions in Kosovo. And as part of our 
rotational model, we intend to have four to five Guard brigades 
available for deployment. So the notion of deploying them to 
Korea is something that is worth looking at, as I told you.
    Dr. Snyder. And just my final comment that Secretary Geren 
referred to the persistent conflict, and you went through an 
eloquent discussion of what is going to lead to the tensions 
and the conflicts in the future. We as a Congress have to do a 
better job of looking beyond the military as being the power of 
this country. And you mentioned epidemics and disease and food 
shortages, and we don't spend nearly enough time as a Congress 
looking at those kind of things.
    Thank you for your statement. Thank you, Mr. Chairman.
    Mr. Ortiz [presiding]. The gentleman from Texas, Mr. 
Conaway.
    Mr. Conaway. Thank you, Mr. Chairman. I appreciate you guys 
coming in. The bad thing being this far down the list is many 
of the good questions are taken.
    Pete, you mentioned earlier about us going to theater. I 
came back from this past weekend with two vignettes that I want 
to get in the record. One was from our trip to Baghdad. We flew 
into Ramadi Saturday afternoon and went to a place called 17th 
Street. There is a joint security station there. And we are 
standing out in the street, little kids running around between 
us and the Marines and doing what little boys do. And the 
leader said, six months ago had we stood in that spot, we would 
have drawn gunfire. Dramatic change there. That is a vignette 
that I bring back.
    The other is how adaptive our team is. We were with a 
provincial reconstruction team in Nangarhar province in eastern 
Afghanistan on Sunday afternoon, and we were having a 
conversation with Colonel Pressler. And it is basically 
Economic Development 101. It could have been a Chamber of 
Commerce meeting: Where do we need roads and electricity and 
those kinds of things? And the morning before, he had been in a 
four-hour firefight with the bad guys. The next day he has to 
put on the ED, economic development, hat. So we have a very 
adaptive team and one that we are all very proud of.
    The Future Combat System has no shortage of critics. We 
have not talked much about the risks that some of these ideas, 
particularly the heart of it--the radio is working but the 
heart of that network and the risks associated with that. How 
do you currently view Future Combat Systems in its current 
state? And folded into that there were some comments earlier on 
about make a deployable on a C-130. And yet the ground unit is 
currently too heavy for a C-130.
    So please share with us about the Future Combat Systems and 
the current state of risk and development.
    The final question, if we could ask Sergeant Cantrell how 
long it takes him to put that stuff back together?
    Secretary Geren. Many of these products that you see here 
in the room are products that have come out of the research for 
the Future Combat System. With the conflict we are in, we have 
put additional emphasis on spinning out the technologies of the 
Future Combat System so that they can help soldiers now. And it 
has been successful. Many of the requests that we get from 
theater for capabilities, we find that the answers to those 
questions come through technologies that have been developed as 
part of the Future Combat System.
    Mr. Conaway. Speak to us about the heart of it, the 
integration of all of that into one unit. The individual pieces 
I agree, but what about the network itself and how well that is 
going?
    Secretary Geren. Well, early on, there were challenges and 
the program now is on track. It is on budget. The systems are 
coming together. And that is the secret, really, the magic of 
Future Combat System is how it empowers the individual soldier. 
The knowledge, the situational awareness which now is only 
known to commanders, we will be able to take it all the way 
down to the company and platoon and eventually all the way to 
the soldier level. But there has been great progress in that 
regard.
    It is still a technological challenge. There is 
technological risk in this. We are doing something that has not 
been done before. But the progress is good. It is steady and we 
are confident that we are on track that the program is going to 
succeed. Every time we have to readjust the budget based on a 
decision of the Congress, it causes it to stretch out some. And 
when you stretch a program out it make its more expensive. But 
we are confident of where we are now and believe it is on track 
and the technology side of it is moving ahead well.
    Mr. Conaway. And the C-130 issue?
    Secretary Geren. I can't--I know--I don't know, Chief, if 
you could----
    General Casey. We are continuing to work that and, frankly, 
we are working with the Air Force to decide whether that is 
something we still think ought to be a key requirement of the 
system.
    Mr. Conaway. Sergeant Cantrell.
    General Casey. How long does it take to put that back 
together?
    Sergeant Cantrell. About two minutes, sir.
    Mr. Conaway. I yield back, sir.
    Mr. Ortiz. The lady from California, Mrs. Tauscher.
    Ms. Tauscher. Thank you, Mr. Chairman.
    Secretary Geren, General Casey, thank you both for your 
service and the fine men and women that you both command. 
General Casey, in your testimony, and also you, Secretary 
Geren, you both acknowledge that the Army is stretched. As you 
know, in August the House passed H.R. 3159, which is my bill to 
mandate minimum periods of rest and retraining for regular and 
Reserve components of the armed forces between deployments.
    My bill mandates a one-to-one rest deployment ratio for 
active duty, and two-to-one rest and deployment ratio for the 
Guard and Reserve. This is far less onerous than the Pentagon's 
own policy, which is a two-to-one ratio for active duty and 
five-to-one for the Guard and Reserves. A majority of the 
Senate voted for the same language twice. So we have passed it 
out of the House and the Senate has voted for it twice.
    What is stunning to me is that while the American people 
and the House and the Senate seem to see the need to rest and 
retrain our troops, Secretary Gates has recommended a veto 
against this bill.
    In your testimony, General Casey, you say that current 
operational requirements for forces and limited periods between 
deployments necessitate a focus on counterinsurgency to the 
detriment of preparedness for the full change of military 
missions. And we all know that we have a stretched military 
that is doing the best it can. Don't have a force big enough to 
deal with contingencies.
    I want to ask you both the same question. Why is the 
Pentagon opposing a measure that will bring relief to our 
troops that is less onerous than the Pentagon's own policy? I 
also want to know when can we expect you to get back to an 
improved dwell time. If you don't agree that this policy is the 
right thing to do, to mandate it.
    General Casey, how long in your opinion--and please be 
specific--do you think the Army can sustain current deployment 
and rest ratios, considering they are now 15 months deployed 
and 12 months rest period?
    Secretary Geren. Well, regarding your bill, as you and I 
discussed earlier, we share your goal. When we moved from 12-
month deployments to 15-month deployments, that was because we 
needed to do that to meet the demand, to meet the combatant 
commanders' needs in the field. Our goal is to get to a point 
where a soldier is deployed for a year and home for two; in the 
case of the Guard, deployed for a year and home for five.
    We can't do that right now with our current force and meet 
the demands of the commanders in the field. We have to 
organize, train, and equip based on what the needs of the 
commanders are. And----
    Ms. Tauscher. Secretary Geren, there is a bigger issue 
here. If there wasn't a question--if there was no question at 
all that we were relatively without any other conflicts or 
contingencies that we had to deal with, I think that we could 
all deal with a short-term stretch of the military. But I don't 
think we live in a very safe world. I think we live in a very 
dangerous world. And I certainly don't think for us to say that 
because we are pinned down in Iraq right now, that we can 
sacrifice--because General Casey said he is the Chief of the 
future--we can sacrifice future preparedness and readiness.
    I need you to tell me how long do you think you can sustain 
this 15-month on, 12-month off, and still maintain the 
readiness that we need for future contingencies? I think you 
are telling us in somewhat obscure language that you can't.
    So I really don't think that I should sit here as a Member 
of Congress and say I am going to let you continue to have a 
policy that continues to feed soldiers into Iraq, that 
sacrifices our future ability to deal with the contingency that 
may be in five years, could be in five minutes.
    Secretary Geren. We have to manage the troops based on the 
needs of the commanders on the ground. Has to be driven by the 
needs of the commanders on the ground. And, again, we share 
your goal. We would like to have the soldiers home more. We 
would like to have them deployed less, and would like to have 
them have more time with their families, and would like to have 
more time to train them. But their decisions have to be based 
on what is going on on the ground. It is not something that we 
can dictate from here.
    Our goals are the same. But we are going to provide the 
fighting force that our combatant commanders need, and we would 
not be able to do it with those types of restrictions that were 
proposed in your bill.
    Ms. Tauscher. With all due respect, our jobs are not the 
same. Our job here in the Congress is to not only look at what 
current fights are and current demands are, but also to make 
sure that we are living up to our constitutional responsibility 
and oath to protect the American people for anything that is 
going to happen. And without this bill, we are going to find 
ourselves, I am convinced, in a situation where something bad 
is going to happen, and, because of both of your testimonies, 
we are not ready.
    Secretary Geren. Well, let me say in that respect, our jobs 
are different. There is no doubt about that. But when it comes 
to our duty to protect the American people today and into the 
future, we have got the same job. And it is our duty--the Chief 
just said we are the future's guys--to look over the horizon. 
But we have to meet the needs of the present and we have got to 
look over the horizon as well. I think I would disagree with 
you that our jobs are different in that regard. I believe we 
share that same responsibility.
    Chief.
    General Casey. If I could, one I laid out today here was 
some thoughts on how to put ourselves back in balance. And I am 
personally working on these rotation schemes to get us back not 
only to one-to-one, but beyond that. And to do that as rapidly 
as I can.
    I can't tell you right now when I am going to be able to 
say we are off of 15 months. I can tell you I have every 
intention of doing that as soon as I can. But the worst thing I 
could do now is go out and say off 15 months, and then have to 
go back on that. So as the Secretary said, we support what you 
are trying to do. We believe we are very capable of doing this 
and with the interests of the current and the future force in 
mind.
    Ms. Tauscher. Thank you.
    The Chairman. Mr. Jones of North Carolina.
    Mr. Jones. Mr. Chairman, thank you very much. And to the 
Secretary and General Casey, thank you so much for being here.
    Mr. Secretary, I wanted to read some comments that were e-
mailed to me today by a former Army general: The stress of 
third and fourth deployment on soldiers and their families is 
crushing. The spirit of the force is at risk. Units are filled 
90 to 120 days from deployment with young soldiers, right out 
of basic training with inadequate and inexperienced 
noncommissioned officer (NCO) leadership. The foundation of NCO 
leadership is seriously degraded. Lieutenants are almost all 
right out of basic school, which is now only four months in 
duration. Experience is seriously lacking in a mission which 
depends on platoon-level competency. Battalions and brigades, 
weeks away from deployment to war, are struggling with 
nondeployable rates as high as 15 percent. Bottom line, our 
Army is at a breaking point, and, without serious mobilization, 
cannot continue the current cycle of deployments.
    Along the line of what has been said before me, does anyone 
at the White House understand what is happening? I just 
cannot--this general, like you, General Casey, you know him. I 
mean we are hearing this all over. That is what Mrs. Tauscher 
is talking about. What do we do in--you are saying that--let me 
see my note right quick--how do you fix the shortfalls? How do 
we fix the shortfalls? I think it is impossible to fix the 
shortfalls. If this is what is happening, it is happening in 
the Marine Corps, too. This just happens to be an Army general 
and he has been to Iraq a couple of times and he is making this 
evaluation from a trip he made recently. And I don't have his 
permission to use his name or where he was.
    But I will read the last comment--this was the first 
comment: The Army is in decay due to the current cycle of 
deployments, a mission without an overreaching regional 
strategy, and a country not mobilized. Nothing new.
    Who is speaking to the White House to make them understand 
what is happening? God bless these men and women in uniform. I 
love them and respect them, but we have a constitutional 
responsibility to treat them fairly, to make sure that if they 
are going to give their life or their limb for this country, 
that we are giving them everything they need from training to 
equipment and to compassion. I am not angry at you. I want to 
make that clear. I am at the White House.
    Secretary Geren. The Chief spent most of the last three 
years in Iraq, and I think it would be valuable for him to 
offer his assessment of the troops. There is no doubt our 
troops are under stress. But I would dispute the 
characterization that that general made of our Army. It is a 
resilient force. Our soldiers are reenlisting at rates that 
exceed our goals, but there is no doubt we are asking a 
tremendous amount of them. We are asking a tremendous amount of 
their families.
    But you have been over there. You met with the soldiers, 
and you meet with them here. We have got a committed force, a 
resilient force, and a determined force, and we are asking a 
great deal of them. But they believe in what they are doing. 
And I think any comparison of this Army today to the Army that 
was called the hollow force in the seventies, I don't think 
that is apt at all. This force is stretched, but it remains 
strong.
    I would like the Chief to speak. He has firsthand 
experience leading troops.
    Mr. Jones. Real quickly, and my time is going to go and if 
the General could speak when the Chairman brings down the 
gavel, that would be fine. I don't know how you could not say--
and not you personally, because you did admit that the troops 
are stressed--but tell me, when generals have said, including 
McCaffrey, other generals, that by the spring of this year, 
what happens when the Army breaks? Can you tell me what happens 
when the Army breaks?
    General Casey. Congressman, the Army is not going to break 
in the spring of this year. We are beginning now to work the 
implementation of the strategy the President announced to begin 
drawing the force down. That will help us significantly in 
increasing the dwell time at home.
    I talked in my whole testimony, we are out of balance. 
There is no question about it. Out of balance is not broken. I 
came into hollow. I know what hollow is, and we are not there.
    Mr. Jones. I thank the Chairman.
    The Chairman. Before I make the next call, General you 
talked of restoring balance to the Army. And we know some of 
the reason for drawing down from the 20 brigades to 15 brigades 
in Iraq is the sustainability of the level of forces. And even 
with 15 deployed brigades in Iraq, a significant percentage of 
our soldiers there will be under continuing strain on the 
force. So what will be the impact on the readiness of the Army 
of continuing a 15-brigade commitment in Iraq?
    General Casey. Obviously, that level of commitment, Mr. 
Chairman, would be harder on us than a continued decreasing 
commitment to both Iraq and Afghanistan.
    The Chairman. Can you do a better job of describing 
``harder'' to us, please?
    General Casey. The lower the number of brigades we have to 
deploy, the greater the time can be spent at home in 
preparation for the other units. So it is a supply and demand.
    I would also remind the committee that we are continuing to 
increase the number of combat brigade teams in the Army. In 
this modularity program we are a little over halfway done, and 
we started off with 33 brigades about 3 years ago. We are at 38 
now, with 5 more standing up. And so by the end of next year we 
will have 42 brigades, going to 48. So it is a combination of 
decreasing the demand and increasing the supply of the brigades 
that will also help put us back in balance.
    The Chairman. Mrs. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman, and Mr. 
Secretary and Chief Casey, for being here, for your service.
    I wanted to just start by acknowledging, I think, some of 
the passion I feel in your presentation when it relates to the 
military families. And I appreciate that. I think that it is 
important that we have that. And in many ways I think it has 
been missing to a certain extent. And I wanted to just ask you 
to try to embellish a few of comments that you made.
    You said in your testimony, we will build a partnership 
with Army families and improve family readiness by 
standardizing existing family programs and services. And you 
put out increasing access for the quality of health care. But 
one of the problems that we have in that is that we have been 
converting, as you know--engaging in the kind of civilian 
conversions in Army medicine, which means for many of the 
families they don't have that accessibility in the way that 
they anticipate, the way that they expect.
    Is there something then that is going to change as we try 
and focus more on how do we support and help our families, 
particularly in this area? Could you expand on your comments in 
that area?
    Secretary Geren. The issue of accessibility, when I travel 
around the country and meet with families I hear that over and 
over. Access to health care, the long delays that they often 
experience, and the problems exacerbated by the war. Many of 
our uniformed soldiers are down range. They are in theater, 
they are supporting the fight.
    I also hear from many families about the availability of 
TRICARE physicians, the availability of physicians in the 
TRICARE network. We are examining that, looking to expand the 
participation in the TRICARE network. We have got areas where 
the participation is very low and we are trying to understand 
why. Is it a question of the bureaucracy? Reimbursement rates? 
Or is it a question of not good education?
    Mrs. Davis of California. I think, Mr. Secretary, what I am 
looking for, if in fact we are going to have soldiers in 
theater for I don't know how many years, even as many as 
perhaps 10, then this is not just because of the war. This is 
because of the problems that have been exacerbated because of 
the war. And what I am looking for is what is it in the way 
that we are working with our recruits or our academies; is 
there something that we are going to be doing that is really 
different to address these needs?
    Secretary Geren. In the health care area specifically? 
Well, we are putting additional resources, we have a hiring 
effort right now to hire 300 additional mental health 
professionals. We are trying to make the TRICARE network work 
better for soldiers, and that is the capacity in the TRICARE 
network we believe is not fully tapped. We need to work better 
in that area.
    But we are hiring both civilians and into the--I mean into 
the Army, and we are exploring joint efforts to meet the needs, 
medical needs. But it is an area that we are working very hard. 
We recognize the challenges there.
    Mrs. Davis of California. Are we likely to curtail the 
conversions, the civilian conversions, or is that something 
that we expect is going to continue or even increase?
    Secretary Geren. Well, the issue of mil-to-civ conversions 
is something that we are looking at hard. The effort, lately we 
have slowed it down because we are not able to fill the posts 
with civilians. And so we are slowing that down. But we are 
looking at other ways to build capacity.
    Mrs. Davis of California. Thank you. Well, I know certainly 
in the mental health area, that is an area that obviously has 
to grow.
    I wanted to ask you some more about that because that is a 
real need and we are hearing about that. I know that in San 
Diego I think we are working hard on that issue. And 
particularly as people transition to the VA system. But we are 
not there yet, even beginning. And it needs a lot of work.
    I did want to ask you, though, about the four imperatives 
that you identified, General Casey, is to grow the Army and 
provide and sustain sufficient forces. How does that factor 
into the approximately 7,000 of the forces that are a result of 
our stop-loss policies? Is that stop-loss policy likely to 
continue? Because I think that is an area where certainly we 
have a morale problem from our soldiers and one that needs to 
be addressed.
    General Casey. It will, Congresswoman, over time. We don't 
like the stop-loss policy, frankly, any better than anyone 
else. And we are looking that as the demand comes down and as 
the supply goes up as we bring in new soldiers and increase the 
size of the force, that we will gradually wean ourselves off of 
stop loss. But I would expect it will stay on for a while 
longer.
    Mrs. Davis of California. You can define ``a while'' for 
the benefit of our service members and give them a better idea?
    General Casey. No, I would be guessing, but it will be 
probably--gradually start weaning ourselves off after we come 
back to 15 brigades. So it will be before next summer before we 
start weaning ourselves off of that. And it will be a gradual 
process. For example, it is now 90 days before you go. We will 
probably cut that back a little bit.
    Mrs. Davis of California. Thank you very much.
    The Chairman. May I make reference, General, you testified 
a few moments ago that the Army has issued one Medal of Honor 
to one soldier during the present conflict. During the Vietnam 
conflict, my records show that there were 159 soldiers who were 
awarded the Medal of Honor.
    Is there a different standard being applied to the awarding 
of the Medal of Honor in this conflict as compared to previous 
ones?
    General Casey. I would say not. I have not seen it, 
Congressman. It is a much different-level fight at the tactical 
level. We are not fighting battalions, brigades, and divisions. 
We are fighting individuals. So it is a much different level of 
fighting there. I have not seen a different standard applied.
    The Chairman. Thank you. Mr. Wilson of South Carolina.
    Mr. Wilson. Thank you, Mr. Chairman. And Mr. Secretary, 
thank you for being here. Over the years I have enjoyed having 
breakfast with you often. Additionally, General Casey, I want 
to thank you as a Member of Congress but I particularly want to 
thank you as a parent. One of my sons served under your command 
for a year in Iraq. And our family is very grateful for your 
service and your leadership.
    And I also want to give a brief update. I had the privilege 
of serving on the congressional delegation (CODEL) led by 
Congressman Abercrombie. It was hard-charging, relentless, he 
kept us going, and so Congressman Larsen and I were there. But 
it was extraordinary to go to Iraq and Afghanistan, to visit 
with General Fil in Baghdad. What an extraordinary leader he 
is. He took us to the Khark community, joint security station. 
We could see the joint efforts of the American and Iraqi forces 
and the success.
    We visited with General Roberts in Ramadi. It was 
extraordinary to be in the capital of Anbar province and find 
out the day before there hadn't been a single attack. To be 
there as there were local officials coming to discuss not 
security concerns, but concerns about trash collection. So I am 
just very, very pleased.
    Additionally, I had the opportunity to visit with General 
Bob Livingston, the South Carolina National Guard. I was in 
that unit for 28 years, the 218th brigade. They are making 
extraordinary progress training the Afghan police. Record 
reenlistment.
    And, finally, we visited the provincial reconstruction team 
(PRT) in Jalalabad. Again, I had been there in June. The young 
service people serving there are quite an inspiration. And 
everywhere we went, we would have breakfast, lunch, and dinner 
with people from our home State, junior officers and enlisted 
personnel. And as a veteran, I believe that we have the most 
competent and capable people serving our country, equipped. 
They are very positive about their mission.
    As I say this, I am concerned as a former member of the 
National Guard with three sons currently serving in the Army 
National Guard. There are reports that indeed the Guard is 40 
percent equipped. I was very pleased to hear your comments, 
both of you, as to the initiatives for $13 billion the next 2 
years, $40 billion in the next 5 years. And I like, too, to 
hear that it was unprecedented in terms of the equipment that 
is going to be provided.
    If you could maybe fill in some more of what those of us 
who so much appreciate the National Guard, what should we 
expect?
    Secretary Geren. The 39 billion is from 2005 to 2013. But 
66 percent of all of our production in the medium tactical 
trucks will be going to the Guard. A high percentage of the new 
helicopters will be going to the Guard. Our goal is to equip 
the Guard as we equip the active duty. In the nineties, the 
changes that we made, we started moving in the direction of 
being one Army, and as you correctly note we rely heavily on 
the Guard. There is no way we can do what we do today without 
being a total force, active, Guard, and Reserve.
    And one of our initiatives is focusing on what we need to 
do to fully operationalize the Guard component, Guard and 
Reserve. What changes do we need to make to transition from a 
strategic reserve to part of the operational force? We are 
going to have to train differently. We certainly are going to 
have to equip differently. We are going to have to have in the 
Guard the same quality of equipment that we have in the Guard 
as in the active component, and the investments that you are 
making now are leading us in that direction.
    General Casey. I can't add anything to that.
    Mr. Wilson. Another concern I have is how quickly the MRAPs 
are going to be delivered to our troops. I am concerned in that 
I did not see them. And when I would ask persons what the 
status was on the MRAPs, they were looking forward to their 
arrival.
    So what is the status of MRAPs for our forces in Iraq and 
Afghanistan?
    Secretary Geren. Well, the JROC has approved for the Army 
10,000 MRAPs. The MRAP program is a joint program with the 
Marines as executive agent. It is being run out of the Office 
of the Secretary of Defense. I happen to have the production 
figures for the Army in front of me now: October, 90; November, 
298; December, 728; January, nearly 1,200; February, 2,000; 
March, 3,400; April, 4,000.
    So we are ramping up very quickly. We wish it were quicker, 
but we are ramping up quickly and we are moving them into 
theater as quickly as we can. The way the MRAPs are apportioned 
will be decided by the central command between the Marines and 
between the Army. The figures that I gave you, that's the 
fielding schedule for the Army.
    Mr. Wilson. And as I conclude, one example of success. I 
was shown a picture of a Humvee that had been attacked in Camp 
Phoenix at the entrance and the vehicle-borne IED vaporized. 
The only thing left was the rear axle. We had one soldier 
injured but all survived, thank you very much.
    Secretary Geren. Thank you.
    Mr. Abercrombie [presiding]. Mr. Larsen.
    Mr. Larsen. Thank you, gentlemen, for helping us out today.
    General, a few questions for you. As part of the group that 
went over to Iraq and Afghanistan with Mr. Abercrombie, we met 
with the PRT in Jalalabad, and a few questions came up as we 
talked to these folks maybe you can help us out with.
    At one point, one of the folks said they will do whatever 
they need to do as an Army soldier, as a member PRT, but they 
would love to get back to being a soldier, get back to 
soldiering.
    So the question I had, one question I have has to do with, 
I think, a verbal statement you made. I did not find it in your 
written testimony. Had to do with being home long enough to 
complete the training that you need beyond just 
counterinsurgency training.
    And so if you can answer quickly, cause I have a second 
question that is related to that, what training does the 
average soldier not get when they are home as a result of the 
deployment schedules we currently have?
    General Casey. Right now, it is a question of time, and my 
estimation is that until we have folks home for at least 18 
months, and they won't be able to do the conventional war 
fighting skills where they maneuver platoons and companies and 
battalions against a fixed enemy and integrate the different 
elements of artillery, direct fire, indirect fire, those types 
of things.
    Mr. Larsen. So if they are home for 12, they get some rest, 
obviously, and then they start their training up again, but it 
is usually now focused on counterinsurgency and it would be 
another 6 beyond that to really get the full complement of the 
training that they would need to do whatever we might ask of 
them.
    They may not be going back to Iraq or Afghanistan, they may 
be going somewhere else for all we know. So it brings up the 
second question, because earlier this year, as well, the 
Secretary of Defense (SECDEF) put out the call for volunteers 
in the military to help fill billets in the PRTs, because those 
billets were not being filled by folks from other civilian 
agencies.
    I talked with some of these folks who happen to be in the 
Air Force, a couple of young Air Force guys who were happy and 
willing to do it. They were a little surprised going from a 4-
month deployment to what has turned out to be a 16-1/2-month 
deployment; but they are going to do it, they are excited and 
they are developing a great skill.
    But I have a question for you as you are thinking about the 
future Army. Are you making an assumption that the future 
Army--since failed states are going to be an issue for us, that 
the future Army is going to continue to be the developing 
world's public works department, or that we are going to have 
soldiers who are actually going to get back in the business of 
soldiering and only be in support of postconflict 
reconstruction.
    What is your thinking on that?
    General Casey. That is a great question. Here is my 
thinking after watching it for my time in Iraq:
    We are the most capable organization of reconstruction in a 
hostile environment; there is no question about it. But my 
concern is that unless we have the authorities and the 
resources that go with the ability to conduct that 
reconstruction, we are never going to get past the friction 
that we have now. And I think it is something that the 
government--we all need to think our way through. Who is going 
to do this? And whoever we decide has got the mission ought to 
get the resources and the authorities to do it.
    So right now it could be something that the Army takes on, 
but I am reluctant to take it on unless I get the money to do 
it.
    Mr. Larsen. I started out thinking that it should be your 
job, part of what you all do. But more and more, as we move 
forward in Afghanistan and Iraq, I am thinking that it ought to 
be only part of what the Army does and in a supporting role as 
opposed to a leading role.
    Not because you couldn't do it. To the last person, every 
one of these folks we talked to said, if you want us to do it, 
we will go do it; that is our job, we will go do it. But we 
would love to get back to doing what we are first and foremost 
trained to do and be in support of other agencies who are using 
their expertise, especially in this PRT setting, which is 
probably a model that we are going to be using in the future 
if, in fact, this plays out in the future; and I believe it 
probably will.
    General Casey. And I think it is something that the other 
eight agencies of the government ought to think about in terms 
of creating a culture that deploys people to help in these 
environments.
    Mr. Larsen. I absolutely agree.
    Thank you, Mr. Chairman.
    Mr. Abercrombie [presiding]. Mr. Bishop.
    Mr. Bishop. Thank you, gentlemen. I, first of, all want to 
thank you as well for being here at this committee, and staying 
this late so some of us in other assignments can actually get 
down here. It can't be easy for you.
    I also want to thank you for your service in this country 
and the men and women who serve underneath you.
    I recognize that you have an unusual responsibility that 
covers a whole lot of areas. I don't want to sound parochial, 
but I am going to. Also, if you can probably find a question 
mark in anything I am going to say, you are doing better than 
I. But I recognize the difficulty that we are having here.
    I appreciate this committee and the chairman of the 
subcommittees, as well as the full committee. I think this 
committee works in a bipartisan way to come up with good 
prioritization, although I think a lot of our problems could be 
solved if we had more money that we were putting into our 
authorization and which I think is woefully underfunded 
compared to everything else we are doing.
    I also look at the money that is flowing, and I recognize a 
lot of the money--it appears to me, especially on our military 
construction (MILCON), to be going to base realignment and 
closure (BRAC) areas and BRAC bases or to support BRAC 
movements when we were supposed to have savings and that that 
hasn't quite materialized yet.
    But here is where the parochial part comes. Tooele Army 
Depot in my district, for example, has spent since--from their 
igloos more ammunition into Iraq and Afghanistan than any other 
depot facility in the Nation, and yet there is nothing in the 
fiscal year defense plan (FYDP) as far as MILCON projects or 
that installation, nor has there been anything for the past 12 
years.
    Once again, I don't want to compare other services, but I 
am. The Air Force does try and plow six percent back into their 
depots to remodernize, and I realize that the technology is 
important in those particular efforts. I also have another 
facility, Dugway, which is part of the biochem mission, which 
has increased its mission low at 800 percent since 9/11, and 
yet the MILCON flow has not gone there, part of which I 
understand was kind of an ownership effort as to which actual 
entity is responsible for MILCON applications to those 
particular areas.
    What I am simply saying is that I realize, in all of this, 
the weighty issues that you have been hit with just in this 
hearing, that there are also some MILCON issues that deal with 
areas that may be considered second tier installations, but 
nonetheless have a significant role in maintaining the warrior 
and the supplies to the warriors going through there. And 
somewhere along the line we may be looking at the 
infrastructure needs that are essential in those particular 
areas.
    I told you I was going to be parochial. And I really am 
searching right now for how to end this with a question so you 
can respond to it in some way other than--if you want to say 
something in general, you can go about that. But there is 
concern I have, that as you are looking at the overall 
planning, what may be considered second tier installations, are 
suffering in some way and there needs to be some kind of 
consideration on the MILCON going into those areas in the 
future.
    Secretary Geren. Let me just say, recapitalizing our 
assets, part of our depots and all of our infrastructure is a 
challenge. As much money as we have in our MILCON and our BRAC 
funding, it still falls short of what you would do in the 
private sector to recapitalize your assets.
    And also the maintenance and support for these facilities, 
we have worked to try to put more resources into the operations 
and the maintenance, as well as recapitalization.
    In my year as Under Secretary of the Army, I spend a great 
deal of the time moving resources around trying to meet the 
needs at various facilities; and we get to the end of the day, 
and we have got more needs than we have resources in those 
accounts.
    But your point is well made, and I will certainly take a 
good hard look at it. But recapitalizing some of those assets 
is a challenge for us and something we have continued to try to 
improve and get the recapitalization rate into a more 
sustainable level.
    Mr. Bishop. I thank you, sir.
    Mr. Abercrombie. Mr. Bishop, you have another minute if you 
would like to go into another area.
    Mr. Bishop. I was actually going to compliment the 
subcommittee under whom I serve for what they do here. I do 
truly enjoy the bipartisan nature and the prioritization this 
committee does.
    However, I do understand all of our problems could be 
solved if we actually did put greater investment into making up 
some of the backlog that needs to be made up just in the 
military. We are not spending enough in this particular area of 
our budget.
    Thank you, Mr. Chairman. I am done.
    Mr. Abercrombie. You are welcome, Mr. Bishop. Thank you. 
And I also thank you for serving with you in other committees, 
where you were also prepared to tell us what we need to do in 
order to accomplish all we need to do.
    Mr. Bishop. Mr. Chairman, I am just waiting for the time 
when you actually follow my instructions.
    Mr. Abercrombie. Well, perhaps right after Ms. Shea-Porter 
gets finished.
    Ms. Shea-Porter. This is probably a good time for me to 
jump in. Thank you very much.
    And I want to thank you both for appearing today. I am 
going to ask some questions that are tough for me to ask 
because my husband was an Army brat when Reserve Officer 
Training Corps (ROTC) served. I was a military spouse.
    I am very worried about the Army. And I don't see it the 
way this report showed it. And I am sorry, I am going to have 
to ask you a few questions about this. I am going to quote you.
    You said, ``With authorization to increase the Army's size 
by 74,000 soldiers over the next 5 years, we will achieve this 
as fast as possible.'' Now, when you wrote that, did you take 
into account that the President has a possible 10-year plan for 
Iraq? Because that is going to make it much more difficult for 
you to bring 74,000 more troops in.
    General Casey. We have laid out a plan to do that, 
Congresswoman.
    Mr. Abercrombie. General, could you just pull that mike a 
tad closer to you, please. Thank you.
    General Casey. We have laid out a plan to do that, 
Congresswoman, based on what we believe that we can recruit and 
retain. And we have looked at it very, very carefully. We don't 
think it is a kind of pie-in-the-sky number; we think it is the 
number that we are going to achieve this year and the number 
that we will continue to achieve.
    Can I tell you, in the first 9 months of fiscal year 2007, 
the one that is going to end here in a couple of days, 250,000 
men and women enlisted or reenlisted in the Army Guard or 
Reserve. That is a quarter of a million folks, and there are 
still a lot of people out there.
    Ms. Shea-Porter. Let us talk about those numbers. The age 
for a private has now been raised to age 42; is that correct.
    General Casey. That is the maximum age that someone can 
come in.
    Ms. Shea-Porter. Right, which has increased from when my 
husband served.
    I understand that you have 10 percent on moral waivers, 
which can mean a variety of issues, but it could be a problem 
for military discipline.
    Is that true, that it is now 10 percent moral waivers?
    General Casey. It is. But I will tell you that 80-plus 
percent of those are more misdemeanors.
    Ms. Shea-Porter. Okay. I just worry about the problems for 
other soldiers if they have soldiers that lack discipline in 
there, coming in with problems.
    A high school dropout rate: you have had to allow more high 
school dropouts.
    General Casey. Not exactly. We have taken in more soldiers 
who do not have a high school diploma. All of them have a high 
school equivalency. We don't take anybody in without a high 
school education or equivalency. And it is less than 10 percent 
more.
    Ms. Shea-Porter. And $20,000 bonuses, if they went in by 
the end of September, right, which would not be sustainable if 
you have to keep giving $20,000 bonuses for people to come in 
over the long term.
    And these are just my worries here. There has been talk 
about gang activity, some gang activity inside the Army because 
we brought the wrong people in. And I know that most of these 
troops are great men and women. I worry about them having gang 
activity on the outside bases. That has been an escalating 
problem; am I right?
    General Casey. It happens. But to say it is an escalating 
problem, I wouldn't necessarily agree.
    Ms. Shea-Porter. Okay. Let's keep going over the list. 
These are just my worries here.
    My understanding is almost half of the West Pointers are 
not reupping now. These are the men and women that we have 
trained to take leadership positions in the future. And I am 
looking 10 years and 20 years down, as you are, to see what the 
military can look like and should look like.
    Are we losing West Pointers at that rate.
    General Casey. We are losing West Pointers about five to 
seven percent more than the historical rate at the six-year 
point when their term is up, so it is a slight increase.
    Ms. Shea-Porter. Okay, and then also what is the top dollar 
being offered for reenlistment? I heard some enormous numbers 
the other day for those that are really in very specialized 
jobs. Is it true that we are offering more than $100,000 
bonuses?
    And the question I want to ask is, is Blackwater stepping 
in and replacing and taking some of our men and women and also 
taking some of the wages?
    General Casey. I couldn't tell you what the top 
reenlistment bonus is. I do know that a year or so ago we 
worked a special bonus for Special Forces that were concerned 
that some of the senior, most experienced Special Forces, 
noncommissioned officers, were in fact being hired away by 
Blackwater. And we instituted a further substantial bonus 
program and that was reversed.
    Ms. Shea-Porter. There seems something crazy about having 
Blackwater working alongside instead of just having our own 
troops, our terrific troops, who are on 24/7, who have 
dedicated their lives to this, and now we have this group 
Blackwater. And it seems as if we are sending some of our best 
people to them.
    And then we are paying Blackwater and we are paying our 
people not to go to Blackwater. It doesn't sound very 
efficient. It sounds insane, really.
    Could you just address that? I know you have about two 
seconds. I am sorry.
    General Casey. I kind of lost the thread on that Blackwater 
piece.
    Ms. Shea-Porter. Well, I just can't understand why we are 
paying Blackwater more than we pay our own brave troops, and 
then we pay our brave troops not to go to Blackwater. It seems 
like we have fallen into a cycle.
    Should we get rid of Blackwater? Do you need Blackwater?
    General Casey. I don't believe we have hired Blackwater for 
any security tasks. We have in the past, but right now we don't 
have any current security contracts with them. I do believe 
that for the foreseeable future there will be a requirement for 
the country to have security contractors to provide personal 
security for people deployed in these environments. I don't 
think we are going to be able to get away from that quickly.
    Ms. Shea-Porter. And then we will lose some of our troops 
to them.
    General Casey. That is a constant tension. But as I said, 
the bonuses that we have offered have reversed that trend.
    Ms. Shea-Porter. Thank you. And, again, thank you both for 
your service.
    Mr. Abercrombie. Thank you.
    Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman. I have a couple quick 
questions.
    I wanted to just ask you, the first thing off, it is my 
understanding that the Army has the lowest research and 
development (R&D) budget of the three services.
    Secretary Geren. I believe that is right.
    Mr. Akin. And then the biggest R&D item in the Army budget 
is Future Combat Systems; is that correct?
    Secretary Geren. Yes. It is our major modernization 
project. It is.
    Mr. Akin. And then this is really the only major 
modernization project in the Army for quite a number of years, 
isn't it, in terms of a major, really big one?
    Secretary Geren. Yes, it is. This is the largest 
modernization effort we have had in the Army in decades.
    Mr. Akin. Now, I see some of the different parts of that 
that are being spun out for the soldiers in the field that are 
up here. I assume those things have been working reasonably 
well, and you have confidence in the program.
    Secretary Geren. We do. Some of the technologies you see 
here today have already been spun out and are operational 
working in the field and are doing well. All of these systems 
are--in addition to being R&D projects, they are coordinated in 
heavy involvement of soldiers who have ground combat 
experience. So we making sure that we don't have just eggheads 
producing technology. We have got to make sure that they are 
well grounded in what the needs of soldiers are.
    So as we are developing these technologies, we are making 
sure we have got input from the ground up so that we are 
keeping the technologies relevant to the immediate needs of the 
soldiers in the field.
    Mr. Abercrombie. Let me interject just for a moment. I want 
to make sure we understand the questions; and perhaps there is 
a misunderstanding because this committee has funded more than 
$20 billion in projects other than--in R&D other than the 
Future Combat System (FCS). But if I heard you correctly, you 
were saying that was the ``only.''
    Secretary Geren. No. It is our primary modernization; it is 
not the only. I may have misspoken if I said that.
    But it is our major modernization initiative. It is our top 
priority. There are other smaller initiatives. And we have got 
an R&D budget that funds a number of areas. But our major 
modernization initiative is FCS.
    Mr. Akin. And because of the fact that you have the troops, 
hands-on, working with the equipment, you are comfortable with 
the direction that that is going and feel that should be a 
major priority then and you still have that commitment.
    Secretary Geren. We are comfortable with the progress. We 
have made--in early years there were some issues. The issues 
have been addressed and the program is on track and on budget.
    Mr. Akin. That is good to hear.
    Now, this committee I believe decided to cut the budget by 
25 percent of Future Combat Systems. Would that have a pretty 
significant effect in terms of having to rescramble all of the 
very complicated logistics of how the systems have to talk to 
each other and the computer discipline of making these 
platforms all interoperable?
    Secretary Geren. The cut that was authorized by the 
committee would pose a serious challenge for us in the Future 
Combat System. We are working with the committee trying to make 
sure that they understand our perspective on it, respect the 
committee struggling with very difficult challenges across a 
range of fronts.
    But it would be--if the cut were to stand, it would pose 
significant challenges for the program. It certainly would.
    Mr. Akin. I think many of the different people who have 
asked you questions all have that same pressure of the budget, 
and how do we get the squeal out of the nickel and how do we 
prioritize things. And certainly that is something we all 
struggle with. But this was a pretty big cut, a 25 percent cut. 
So you are saying that would be big.
    Well, I am glad to hear that it is on time, on budget and 
that you are pleased with what is going on. And it sounds like 
you wouldn't be saying that if the troops that were using the 
equipment didn't have a good sense of excitement about it and 
felt that it would really advance us in terms of our ability to 
protect our soldiers and to really basically produce a more 
effective Army.
    Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Abercrombie. You are welcome.
    Mr. Sestak.
    Mr. Sestak. Thanks, Mr. Chairman.
    General, could I ask maybe two questions of you and one of 
you, Mr. Secretary.
    You have a readiness reporting system. And basically now 
your men and women are training primarily for insurgency. So 
people go off. That means there is no unit sitting here at 
home. And I saw, before the surge, the classified slide, so I 
am not sure his comment about ``unprecedented'' is wrong. It 
depends how far you go back.
    So not one Army unit is really ready, for instance, trained 
to--let's just take one scenario--protect the 30,000 troops in 
South Korea. So when Admiral Fallon came through the House 
Armed Services Committee and we asked him who are those that 
are going to protect them, since the Army is not ready to 
deploy forward to protect them if there is an attack, he said, 
the Air Force and the Navy, and he was comfortable with that.
    So my question to you is, are you comfortable with that; 
and if so, does that mean the war plans for 5027 for Korea, can 
we now assume when Iraq is over we don't need to plan any 
longer for three or two, or whatever Army divisions, for that 
contingency since we are comfortable with it now?
    General Casey. I am not sure what----
    Mr. Sestak. Admiral Fallon on his way through here, on the 
way to Central Command (CENTCOM).
    General Casey. First of all, there are Army units that are 
trained for Korea. There is an Army division and an Army 
brigade in Korea. And they just completed Ochi Focus, which is 
a major joint exercise with the Koreans, so they are training 
for that conflict.
    Mr. Sestak. So they are C1 or C2. Those right now are C1 or 
C2, the units you just mentioned?
    General Casey. I couldn't put the ratings on them. But your 
comment was that they are doing only counterinsurgency 
training. That is not true for the forces in Korea.
    Mr. Sestak. Having looked, though, are there any units here 
at home C1 or C2 that could deploy to Korea.
    General Casey. When you get into----
    Mr. Abercrombie. General, excuse me, before you answer. 
Some of this--I think we are going to wander into areas that I 
don't think we can talk about at this hearing.
    General Casey. That is what I was saying.
    Mr. Sestak. On the state of readiness that they could 
deploy, are you comfortable with their state of readiness they 
could deploy?
    General Casey. And as I said in answer to the chairman's 
question, no. And I said in my opening statement that we are in 
a state of--the forces who are not in Iraq, their levels of 
readiness do not permit them to deploy as rapidly as we would 
like to places like Korea.
    Mr. Sestak. Could I ask a question then?
    You oversaw as J3, or participated in or as director of the 
Joint Staff, a series of war games on J8--marvelous work; I 
forget what they called it--where 101030, do you remember all 
that, and speed mattered, of deployment? And these, you say, 
aren't ready to rapidly deploy there, but speed seemed to 
matter in those war games. And the assessment of those games 
over several years was, we had the number about right of how 
many Army troops we needed if they could rapidly deploy there.
    So my question comes: You said in your opening statement 
that we are building a 21st century Army that will be less 
manpower intensive. And yet we are getting 65,000 more troops. 
And I am not sure the Army has yet presented what support 
troops they need for those; I don't think that has been brought 
forward yet.
    So my question is, are we buying these troops, in view of 
those war games and now the future, saying they are less 
manpower intensive because of Iraq?
    General Casey. No.
    Mr. Sestak. And then, if not, those war games had the wrong 
assessment?
    General Casey. I am not exactly sure how far back you are 
going on these war games. But when I talk about less labor 
intensive and a smaller footprint, that is what we are trying 
to get out of the Future Combat System.
    Mr. Sestak. Less manpower intensive?
    General Casey. Less manpower intensive.
    So in a brigade combat team the number of mechanics between 
a tank brigade combat team and a Future Combat System brigade 
combat team is down by about 1,300. It requires less people to 
maintain. The FCS brigade combat team can sustain itself for 72 
hours.
    Mr. Sestak. Are we going the wrong direction then building 
up our troop structure?
    General Casey. Two different issues. One is how we are 
going to design our forces for a 21st century environment. The 
second issue is the number of forces we need to do operations 
in general.
    Out of the increase, the 74,000 increase that we have been 
directed to make, only about 40 percent of that is going into 
brigade combat teams; the rest are going into enabling forces 
that we need for full spectrum operations.
    Mr. Sestak. As we always do?
    General Casey. As we always do.
    Mr. Sestak. I have one more. Should I just wait until the 
next round?
    Mr. Abercrombie. You can do that. I am the next round, so 
why don't you go ahead.
    Mr. Sestak. If I can come back to Representative Shea-
Porter's questions, I had thought that diplomas for the 
military personnel who you are recruiting, that their diploma 
rate had gone down--actually having gotten a diploma, not a 
GED--a diploma went to 92 to 81 percent.
    But with your GED effort that you are doing--I think it is 
TAR or S or something--you have got it from 75 up to that 81. 
But let's set that aside.
    For the first time since 1990, we are recruiting in 
categories 3A and 4, the lower two below average mental 
category; 40 percent of our recruits are coming from those two 
categories. We haven't been that low since 1990. So even though 
we may be getting the bodies in, if what you said--this 21st 
century, less manpower intensive, but much more technological--
because I do think FCS, built around the information network, 
bodes a lot for the future brought about right. But it is going 
to depend upon a soldier who is really--where you were going--
is the best and the brightest.
    Is that of concern to you that having watched the Army 
transition through all post-Vietnam years and all and gotten to 
getting--you know, basically you could only recruit 0.1 percent 
in category 4. Now you are at the max you can at four percent, 
so you are leaping over into category 3A.
    Is that of concern to you for your future since those are 
the ones that are going to run this FCS system come 20 years 
from now?
    General Casey. It is something that bears watching for 
sure. And I agree with you, what you are saying about the 
mental capacity of these troops to operate these new 21st 
century systems.
    Mr. Sestak. Is there any initiative, though, to try to, I 
mean, attract those you used to attract in 2004? Because this 
has all changed since 2004.
    General Casey. Sure.
    Mr. Sestak. Not just numbers, which I know is a challenge, 
but the quality.
    General Casey. In fact, the Secretary and I have directed 
kind of a clean sheet of paper: Look at how we are recruiting. 
Because this is the first time that we have had to recruit an 
all-volunteer force in a protracted conflict since the 
Revolution. And so there are things we are sure we need to do 
differently to get the caliber of folks in that we need.
    But I would say that I went out and talked to drill 
sergeants when I first got here; and I said, How is the quality 
of the troops that you have? And some of them said, I am 
spending too much of my time helping some of these guys.
    And so I said, Okay, tell me about it. And they said, Well, 
look, about 20 percent of the guys and gals we are getting in 
are really good. I was surprised to find out that 20 percent of 
the West Point Corps of Cadets is prior service. Now we are 
taking in a pretty high-caliber folks. I met one kid that was 
going to London School of Economics after he graduated, who 
came up in the ranks.
    The second part of that is--I lost my train of thought 
here, Mr. Secretary. Can you help me out?
    Secretary Geren. The drill sergeants.
    General Casey. The drill sergeants. Thank you.
    About 60 percent are your solid middle, and then you have 
got 20 percent that are problems. Of those 20, they said about 
10 percent are never going to make it, and they are the 
problems.
    So I said, Wait a minute; you are telling me you are 
spending 90 percent of your time with 10 percent of your 
people? And they said, Yeah. And I said, Well, that is what I 
have been doing since I came in the Army 37 years ago.
    Mr. Sestak. Mr. Chairman, I beg your indulgence to just 
follow up with him, or I will go after you.
    Mr. Abercrombie. Let's finish up.
    Mr. Sestak. Can I ask you one final one?
    Do you believe we need to go below the surge level to get 
to an Army that is not one where you are uncomfortable or not 
happy with the strategic readiness in order to confront the 
other challenges around this world?
    General Casey. Congressman, as I said, demand is a factor 
here. And the sooner we get demands down to sustainable levels, 
the easier it will be for us to do the things we know we need 
to do.
    Mr. Abercrombie. Thank you.
    The chairman had said that we would finish at 5:00, but I 
am the last one to speak. With your permission, is it all right 
if we just go ahead and then we can finish up?
    Secretary Geren. Certainly. What is your pleasure.
    Mr. Abercrombie. Mr. Secretary, I am delighted to be able 
to welcome you as a colleague and friend as Secretary. I am 
sure you have already been told by others on the committee how 
happy we are for you and how proud we are of you. And it is a 
particular personal pleasure for me to offer you my aloha 
today.
    Secretary Geren. Thank you very much.
    Mr. Abercrombie. That is the good news.
    Secretary Geren. I am bracing myself.
    Mr. Abercrombie. No, no, not at all. Because this is a 
hearing on strategic initiatives, I am going to let the Future 
Combat System discussion go to another forum, perhaps as we go 
to the conference. Inasmuch as my subcommittee made the initial 
recommendation on the reallocation of funds, I always get a 
little concerned when we throw words like ``cut'' around.
    I didn't consider it a cut; I considered it--as did the 
chairman and, finally, the rest of the committee--a 
reallocation of funds based on some of the commentary that has 
been utilized today of meeting readiness demands and proper 
allocation of funds considering where the Future Combat System 
is today in terms of its ability to produce. But I will say 
that just as an observation on the commentary of this point.
    For my part, General Casey, I want to refer to your 
testimony, almost two years to the day ago, in your capacity as 
the multinational commander when you came to speak to this 
committee on September 29, 2005. I am going to quote a few 
things to you, not with the idea of saying, Aha, you know, here 
is what you have said, I have trapped you in some kind of 
previous commentary; but rather to try to establish a 
perspective for today on strategic initiatives.
    The sum and substance of your statement had to do--and what 
I am going to quote to you as quickly as I can--had to do with 
strategic as well as the broad concepts that you had. And your 
testimony is based on your summary of your judgment over the 
past 18 months--starting in June of 2004, and you were speaking 
at the end of September in 2005--about the capacity of the 
Iraqi Security Forces in terms of--qualitatively and 
quantitatively in terms of their increase.
    And you said, ``So over the past 18 months we have built 
sufficient capability to begin preparing for the transition of 
the counterinsurgency mission to capable Iraqi Security 
Forces.''
    The reason that you stated for wanting to do that, you 
referred to a closed study of history that showed, without 
strong indigenous partners, counterinsurgency operations have 
not fared well.
    And then you went on to say, ``The longer the Coalition 
carried the brunt of the counterinsurgency fight, the longer 
they would carry the brunt of the fight itself. This gets to a 
dependency issue.''
    Then you went on to indicate, in reducing the visibility of 
the Coalition forces across Iraq and, ultimately, as conditions 
warrant, to begin to reduce our presence in Iraq away from an 
element that fuels the insurgency--and I am quoting you now--
``that is the perception of occupation.''
    You went on to cite the number of security forces in the 
hundreds of thousands, et cetera.
    The third point under the strategy was that the more 
capable security forces are, the quicker--excuse me, increased 
Coalition presence feeds the notion of occupation and 
contributes to the dependency of Iraqi Security Forces on the 
Coalition and extends the time it will take Iraqi Security 
Forces to become self-reliant and exposes more Coalition forces 
to attack at a time when Iraqi Security Forces are increasingly 
available and capable.
    Finally, your fourth point, and I am quoting directly, 
``Reducing visibility and ultimately the presence of Coalition 
forces as we transition to Iraqi security self-reliance is a 
key element of our overall strategy.''
    I cite those things because you felt in September, two 
years ago, after 18 months of trying to put this together along 
those lines--and I hope you feel that I have accurately or 
adequately summarized your points--we now find ourselves, 2 
years later. And I would like to know what would lead me to 
believe, then, at this stage, after three years and eight 
months, that we are any further along toward meeting any of 
those four points. Or if we are further along, at what point 
are we going to be able to make the transition?
    You probably also recall that in that talk that you gave 
then, you indicated the average counterinsurgency, from 
previous times presumably--I am not quite sure whether the 
``strong indigenous partnership'' was mentioned, but you 
mentioned nine years as an average.
    Well, here we are, three years and eight months into it. I 
would like to know if you felt that you were ready to make that 
transportation two years ago? What is your strategic assessment 
today, then, in terms of the capacity to fulfill any of those 
four or all four of those points that you made.
    General Casey. I would say, I said, ``begin the 
transition.''
    Mr. Abercrombie. Oh, yes. And I read that to you because I 
understood that you would zero in on that.
    But the beginning was two years ago.
    General Casey. And we have begun the transition, and it 
continues in Iraq.
    Now, I don't do Iraq anymore, obviously. I have a different 
view that I have laid out here today. And I represent the 
interests of the Army as an institution.
    Mr. Abercrombie. But the difficulty, General Casey, is that 
absent this particular reference that I have made, one would 
think, and I think the country thinks now, it is almost as if 
we are just starting today.
    If you go back to General Petraeus' commentary, it is as 
almost--and this where, Mr. Secretary, I think you are going 
have a difficulty here--it is--almost every hearing we have, it 
is as if we are just beginning to make our transition.
    Well, this is the 65th hearing, or the 3 years and 8 months 
down the line in which we have begun to make the transition; 
and at a certain point it almost gets to a ``crying wolf'' 
situation.
    At what point do we actually make the transition? Do you 
have a projection? Because that fundamentally informs what we 
will be able to do in terms of strategy initiatives.
    General Casey. I will tell you there are 7 provinces that 
have already transitioned, and that was part of the strategy, 7 
of 18. Now, it is clear that the sectarian violence that was 
spawned by the attack on the mosque in Samarra in February of 
2006 complicated the situation.
    Mr. Abercrombie. But that takes place, that kind of thing 
can take place all the time; that is what I call events getting 
in the saddle and riding you.
    What is the projection now today in strategic initiatives? 
What is the projection of when we are going to make the 
transition? Let's assume for our conversation's sake that you 
are able to keep control of events.
    General Casey. Congressman, that is a question for General 
Petraeus. I can talk about the history, but I can't talk about 
the projections for today. That is his bailiwick now.
    Mr. Abercrombie. Well, I am disappointed in that answer, 
because that--it does relate, this kind of thing directly 
relates to, say, funding for Future Combat Systems and all the 
rest of it. We have got to make decisions here about what we do 
in terms of funding and what policies we direct.
    I guess I will put it to the Secretary.
    What is the projection, Mr. Secretary? How do we reconcile 
what this committee has to do in terms of putting a Defense 
budget and policies together with regard to the strategic--this 
commentary that I am quoting General Casey on was with regard 
to the strategy we are going to pursue.
    Secretary Geren. The circumstances on the ground will drive 
those decisions. And I can't--I don't have a crystal ball. I 
couldn't add anything to what General Casey told you now or 
General Petraeus told you earlier.
    Mr. Abercrombie. Because we don't have all the time in the 
world, if that is going to be the case, what you are saying is, 
third parties are going to determine the strategy of the United 
States.
    It has to depend on our policies. If conditions on the 
ground determine everything, we are supposed to determine what 
we want to do about the conditions on the ground.
    Secretary Geren. And that is General Petraeus' job. And our 
job is to provide him properly organized, trained, and equipped 
resources to do it.
    That tension is never going to go away: Meeting the needs 
of the present and also making the proper investments for the 
future. It is a struggling that we have today, and I am 
confident we will have 10 years from now, using the 
supplemental to fund the war effort; and I don't know how long 
we will continue to approach it that way, but we have got the 
base budget, where we try to balance the needs of the present 
and the future and use the supplemental to meet the immediate 
needs of the war effort.
    Mr. Abercrombie. But the supplemental, you are familiar 
with my argument that I don't like to do things that way.
    You may recall, in 2006 I made a motion to try and pay for 
the war--I was defeated--try to pay for the war on our budget. 
And I was defeated because, you may recall, the then-chairman 
of the committee said, ``We will take it up in the 
supplemental.'' And I said, you know, this is a whole brand-new 
way of doing things.
    From a statutory point of view, I think that that puts you 
in a very difficult position in terms of trying to reset the 
Army.
    Secretary Geren. No doubt the uncertainty of the future, 
the uncertainty of tomorrow, makes projecting our allocation of 
resources difficult. We have to look at the circumstances that 
we have and balance those investments in the present with the 
needs to invest long term.
    I think if you look over the history of our country, 
frankly, we have not done a very good job of that. We tend to 
underinvest in the future and find ourselves short when the 
future gets here. We have done it in many conflicts. We have 
often done it following on the heels of conflicts. We don't 
properly guess the future and we invest improperly.
    I think back on my time on this committee and my time in 
the Congress, and we looked into this century. I voted with the 
majority and we drew down the forces from 780- to 482,000. When 
I look back on it, it wasn't a very good decision.
    We are constantly having to look over the horizon and 
render our best judgment knowing that we often will get it 
wrong. And our best insurance against getting it wrong is 
investment in full-spectrum readiness so that we can be as well 
positioned as possible for whatever happens next.
    Mr. Abercrombie. Well, I value this discussion because it 
strengthens--in me, at least; I don't know how others will 
conclude--that we need to set the policy and not have the 
policy set by actions that take place outside of the decisions 
made here. We need to set where we want to go and not go where 
we have to go, because we let events get in the saddle, as I 
said, and ride us.
    So unless the chairman has further commentary, I want to 
thank you both for spending the time with us today and, more 
particularly, for taking up the question of a strategic 
initiative and how we can best address that from the point of 
view of the Defense bill.
    And I hope to be able, at some point, Mr. Secretary, in 
particular--be able to extend my congratulations to you even 
more personally.
    General Casey, thank you very much. I also appreciate your 
hospitality in recent days as well.
    With that, unless there is anything else, Ms. Shea-Porter, 
I will bring the hearing to a close.
    [Whereupon, at 5:30 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           September 26, 2007

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 26, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T4632.001
    
    [GRAPHIC] [TIFF OMITTED] T4632.002
    
    [GRAPHIC] [TIFF OMITTED] T4632.003
    
    [GRAPHIC] [TIFF OMITTED] T4632.004
    
    [GRAPHIC] [TIFF OMITTED] T4632.005
    
    [GRAPHIC] [TIFF OMITTED] T4632.006
    
    [GRAPHIC] [TIFF OMITTED] T4632.007
    
    [GRAPHIC] [TIFF OMITTED] T4632.008
    
    [GRAPHIC] [TIFF OMITTED] T4632.009
    
    [GRAPHIC] [TIFF OMITTED] T4632.010
    
    [GRAPHIC] [TIFF OMITTED] T4632.011
    
    [GRAPHIC] [TIFF OMITTED] T4632.012
    
    [GRAPHIC] [TIFF OMITTED] T4632.013
    
    [GRAPHIC] [TIFF OMITTED] T4632.014
    
    [GRAPHIC] [TIFF OMITTED] T4632.015
    
    [GRAPHIC] [TIFF OMITTED] T4632.016
    
    [GRAPHIC] [TIFF OMITTED] T4632.017
    
    [GRAPHIC] [TIFF OMITTED] T4632.018
    
    [GRAPHIC] [TIFF OMITTED] T4632.019
    
    [GRAPHIC] [TIFF OMITTED] T4632.020
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           September 26, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T4632.021
    
    [GRAPHIC] [TIFF OMITTED] T4632.022
    
    [GRAPHIC] [TIFF OMITTED] T4632.023
    
    [GRAPHIC] [TIFF OMITTED] T4632.024
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           September 26, 2007

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. SPRATT

    Secretary Geren. Reset funding is not programmed across the Future 
Years Defense Plan. Reset requirements depend on forces deployed and 
deploying in support of current operations; the amount of equipment 
returning from the area of operations; wear on that equipment; battle 
losses; lessons learned; capability gaps; continued use of theater 
provided equipment; and restoring Army pre-positioned stocks. Future 
Reset requirements are estimated at $13-14 billion a year. This funding 
is necessary for 2-3 years beyond the cessation of the current 
conflict. [See page 15.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 26, 2007

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. ORTIZ

    Mr. Ortiz. Secretary Geren, General Casey stated that the Army is 
``consuming readiness as fast as we can build it,'' yet you stated that 
the Army's depots are not operating at maximum capacity. At the same 
time, when asked what you would do with more money, you said you would 
put it in equipment. Please explain the disconnect between these 
statements. If the Army needs more equipment, why aren't its depots 
operating at maximum capacity to return equipment obviously needed for 
operations and training?
    Secretary Geren. The depots return the Army's current equipment up 
to the readiness standard but they do not fill Army equipment shortages 
(the holes in the yard). Only new procurement can do that. The depots 
are operating at the capacity level required to expeditiously repair 
the equipment as it comes out of theater. Unit rotation schedules drive 
the rate of return of equipment from theater. Depot production 
schedules are based on the return of equipment and Army Force 
Generation (ARFORGEN) requirements. Operational decisions made by these 
commanders continue to drive our depots' operating capacity. For 
example the decision to leave the 4th Infantry Division combat systems 
in theater to be used by the 1st Cavalry Division affected the amount 
and timing of work required in the depots. The requirement for us to 
surge five additional brigade combat teams this year and the decision 
to extend unit deployments from 12 to 15 months reduced, in the near 
term, the amount of equipment returning from theater. As we redeploy 
the surge brigade combat teams and return to shorter deployment times, 
the amount of equipment returning from theater will increase which will 
drive the need for higher resources and capacity at our depots.
    Currently all depots are working multiple shifts to meet the 
ARFORGEN requirements. The depots are finalizing production schedules 
for this fiscal year, and they continue to order necessary parts with 
varying lead times to ensure our depots can operate at the appropriate 
level to reset the force. It is imperative that we receive sufficient 
supplemental funding early in the fiscal year. If received on time, the 
U.S. Army Materiel Command does not anticipate the need for additional 
funding to increase production capacities in fiscal year 2008.
    Although the depots have the capability to substantially increase 
their production in most areas, such an increase would have to be 
undertaken over time, and in response to clear requirements. For 
example, the repair parts needed for Bradley Fighting Vehicle Systems 
can take up to 18 months to procure; parts for the M1 can take up to a 
year. Without adequate parts, depots cannot repair weapon systems. Some 
shops at the depots, such as the painting, sandblasting, metal work, 
and other process shops are currently working 24 hours a day, 7 days a 
week. To prevent these from becoming bottlenecks that impede increased 
production, we continue to use Lean/Six Sigma to reconfigure, and 
expand our core depot operations.
    Specific details on the current depot work schedules follow:

        <bullet>  Anniston Army Depot is accomplishing 74% of its 
        production on 1st shift (working 11 hours per day, 6 days per 
        week), and 26% of its production on 2nd shift (also working 11 
        hours per day, 6 days per week plus 25%). Painting, 
        sandblasting and chemical treatment operations are conducted on 
        Sundays. This leaves only 2 hours per day plus 1 day per week 
        (Sundays) for maintenance and upkeep of the maintenance 
        facilities.

        <bullet>  Red River Army Depot is accomplishing 82% of its 
        production on 1st shift (working mostly 10 hrs per day 4 days 
        per week, plus 24% overtime), 16% of its production on 2nd 
        shift (also working 10/4 plus overtime), and 2% of its 
        production on a 3rd shift in the rubber products division 
        (which works 3 8-hour shifts per day seven days per week).

        <bullet>  Corpus Christi Army Depot is accomplishing 78% of its 
        production on 1st shift (standard 8 hrs, 5 days per week with 
        21% overtime), 16% on second shift (also 8 hours, 5 days per 
        week with overtime), and 6% of its production on third shift 
        (same as the other shifts).

        <bullet>  Letterkenny Army Depot is accomplishing 85% of its 
        production on 1st shift (8 hours, 5 days per week plus 10% 
        overtime), 13% on second shift (same), and 2% on third shift 
        (same).

    Tobyhanna Army Depot is accomplishing 86% of its production on 1st 
shift (8 hours per day, 5 days per week plus 17% overtime) 4% on second 
shift (same), and 10% on third shift (same).
    Mr. Ortiz. General Casey, what is your estimate of the 
``considerable resources'' that will be required to implement your four 
imperatives and over what time frame?
    General Casey. The Army greatly appreciates increased support in 
both base and supplemental appropriations. We rely heavily on 
supplemental funding to ensure readiness in deploying forces, to 
achieve readiness in our next-to-deploy units, and to build strategic 
depth.
    We face significant challenges as we balance the current needs with 
future demands. With the continued support of Congress and OSD, we are 
developing a comprehensive resource strategy to sustain our Soldiers, 
Families, and Civilians; prepare Soldiers for success in current 
operations; reset to restore readiness and depth for future operations; 
and transform to meet the demands of the 21st century.
    Our goal is to match the base budget to assigned missions, which 
includes transitioning appropriate supplemental funding to the base.
    Mr. Ortiz. General Casey, what specific training and leadership 
programs are planned to ensure future Army leaders are ``culturally 
astute''?
    General Casey. The Army has incorporated culture awareness into 
training and leadership programs at all levels. Our intent is to 
develop cultural understanding over the course of our Soldiers' entire 
careers, not just develop it when their units are preparing for 
deployment. The Army's goal is to develop the right set of competencies 
to operate across the full spectrum of operations in coordination with 
other Services and joint, interagency, intergovernmental, and 
multinational partners and allies.
    The Army will train leaders to master a portfolio of professional 
competencies for operations around the world, which can profoundly 
influence the outcomes of U.S., allied, and coalition operations at any 
time. The integration of cross-cultural competence and regional 
expertise is essential to the planning and execution of all operations. 
We are training Soldiers and leaders to understand the key factors that 
define cultures and the peculiarities particular countries or regions, 
e.g. identity groups, values, beliefs, and relevant economical, 
historical, and political processes. Ultimately, Soldiers and leaders 
will understand how people from other cultures and regions perceive 
themselves, their neighbors, and the United States.
    We have incorporated culture training for enlisted leaders starting 
in the Warrior Leader Course (supported by the Sergeants Major Academy) 
and for officers in the Basic Officer Leader Course (supported by Army 
War College). At the Command and General Staff College and the Army War 
College, we conduct regional studies electives and symposiums to better 
educate and train our mid-grade and senior leaders. We have also begun 
to develop cultural understanding in pre-commissioning programs, 
Reserve Officer Training Corps and the U.S. Military Academy.
    The Training and Doctrine Command Culture Center (TCC), at Fort 
Huachuca, Arizona, integrates the cultural component of initial 
military training for Soldiers. The TCC also deploys mobile training 
teams to operational units and distributes its educational products 
across the Army to enhance the cultural capabilities of our Soldiers. 
We also employ civilian and military role players at mobilization sites 
and training centers to reinforce our Soldiers' training.
    The Army is building learning into all Soldiers' career paths to 
develop, sustain, and balance the right combination of language and 
cultural proficiency with their traditional warfighting skills. 
Education and training will begin early and be sustained throughout the 
career life cycle. The Department of the Army believes that improving 
the ability of our Soldiers and units to work with people from other 
cultures is important for effective operations today and in the future.
    Mr. Ortiz. General Casey, given that you stated you would not be 
comfortable with the Army's response to a conflict in which 
conventional warfare skills were required because limited dwell time is 
constraining full-spectrum training, how will the Army ensure its 
Soldiers are fully trained in traditional warfighting skills in 
addition to providing counterinsurgency training?
    General Casey. With limited time to reset and train in between 
deployments, Army units are challenged to find enough time to train for 
their core, full-spectrum mission while also ensuring they are prepared 
to assume their next assigned mission. As we grow the Army and increase 
the dwell time between deployments, we will be better able to train our 
units for full-spectrum operations.
    With enough time in between deployments, our units will first focus 
their training on their more general ``as-designed'' or core mission. 
Their core mission is designed to address fundamental capabilities 
required to execute full spectrum operations (offense, defense, and 
stability operations) in the contemporary operational environment. Our 
units do this by employing various operational themes (limited 
intervention, peace operations, irregular warfare, and major conflict) 
throughout various types of conflict (unstable peace, insurgency, and 
general war). For Brigade-level units and above, the Army plans to 
publish a list of essential tasks for each unit's core mission, or Core 
Mission Essential Task List. This will provide a standardized focus for 
training and readiness reporting. Units not assigned a specific mission 
will ensure proficiency in their core mission.
    Mr. Ortiz. General Casey, with a 5 million acre maneuver deficit 
for CONUS units, how will the Army ensure its Soldiers are provided the 
training needed to ``succeed in the current conflict'' and ``keep pace 
with an evolving enemy''?
    General Casey. Answer. In 2003, the Army G-3 approved the Range and 
Training Land Strategy (RTLS). The purpose of the RTLS is to address 
the increasing land deficit facing the Army. The RTLS serves as the 
mechanism to prioritize Army training land investment, and helps to 
optimize the use of all Army range and training land assets. The RTLS 
provides a long-range plan for the Army to provide the best range 
infrastructure and training land to units. The RTLS is updated 
periodically to address the Army Campaign Plan.
    The Army Sustainable Range Program (SRP) continually takes steps to 
maximize the capability, availability, and accessibility of all Army 
training lands. The SRP actively identifies and changes internal Army 
and governmental processes and practices in order to maximize use of 
current Army lands.
    The Army examines the land status of other Federal entities to 
mitigate land deficits at Army installations. Land that borders Army 
installations, held by the other services, the Bureau of Land 
Management, or U.S. Forest Service, has the potential to transfer or to 
be leased to the Army after a comprehensive approval process that 
includes the National Environmental Protection Agency and other public 
reviews.
    Army Compatible Use Buffers (ACUBs) allow the Army to preserve or 
enhance an installation's current training land capabilities by 
influencing land uses outside the installation. By forming 
partnerships, the Army can deter encroachment by securing off-
installation land-use agreements that are compatible with Army 
training. ACUBs serve to insulate Army training from encroachment and 
to reduce environmental restrictions to training. Land buffers are very 
effective and generally popular among local communities. ACUBs do not 
provide additional training land.
    The Army will pursue land acquisition where feasible and 
doctrinally sound. The Army will not be able to address its training 
land shortfall by land acquisition alone. The Army will pursue land 
acquisition at locations with the capability, accessibility, and 
availability for land acquisition.
    Mr. Ortiz. General Casey, in light of the fact that units deploying 
to theatre now may have to conduct their mission rehearsal exercises at 
home station, how will you ensure that Army forces train at the combat 
training centers?
    General Casey. The Army's primary choice to prepare deploying units 
is through a Mission Rehearsal Exercise (MRE) conducted at one of our 
Combat Training Centers. The decision to conduct the training at home 
station instead of executing a Combat Training Center (CTC) rotation is 
made by the Army senior leadership on a case-by-case basis.
    Units that conduct Mission Rehearsal Exercises (MRE) at home 
station, instead of at a CTC, do not experience significant differences 
in training readiness. The tasks trained during a home station MRE are 
the same tasks that are trained during a CTC MRE, with the exception of 
reception, staging, onward movement and integration (RSOI) tasks. There 
are some differences in the type and amount of maneuver area between 
these venues. However, we mitigate potential risks by ensuring the 
fidelity of the Contemporary Operating Environment and instrumentation, 
the participation of joint enablers, the appropriate level of live-fire 
exercises, and the export of critical resources from CTCs. This enables 
our home station training locations to fully prepare our units for the 
combat mission they have been assigned.
    Over the past four years, operational requirements have 
necessitated that we train five BCTs through home station MREs to 
preserve time. Let me assure you, conducting an MRE at home station is 
the exception and not the rule, and CTCs remain the primary venue for 
unit MRE training prior to deployment.
    Mr. Ortiz. General Casey, what is the Army's plan to speed up 
implementation of Army Force Generation by two years, from 2013 to 
2011? How will this acceleration be implemented?
    General Casey. The Army has mature strategies for manning, 
equipping, training, sustaining, modernizing, funding, reporting 
readiness, mobilizing, deploying and educating the force to conduct 
continuous full-spectrum operations. Currently the demand for our 
forces exceeds the sustainable supply and readiness is being consumed 
as fast as the Army can build it.
    We are acting quickly to restore necessary depth and breadth to 
Army capabilities and build essential capacity for the future in order 
to restore balance and to preserve the All Volunteer force.
    The most critical and initial step is that we must grow the Army 
faster. We have a plan in place to achieve the Active Component end 
strength of 547,000 by FY10; and the Army National Guard is on a ramp 
to achieve 358,200 even sooner. This growth will enable us to 
revitalize and balance the force, reduce deployment periods, increase 
dwell time, increase capability and capacity, and strengthen the 
systems that support our forces. This accelerated growth will not 
immediately restore readiness, but is a step in the right direction.
    Second, we are implementing a reset model to both sustain and 
prepare forces for future deployments. This model includes actions and 
necessary improvements to Title 10 processes required to rebuild 
readiness consumed in operations. Most important, reset encompasses 
those tasks required to reintegrate and care for Soldiers and Families, 
then organize, man, equip, and train, a unit. Reset is organized around 
the premise that we must enable Soldiers and Families the opportunity 
to recover in order to reverse the cumulative effects of sustained 
operational tempo. The first six months after return from deployment--
referred to as ``Reconstitution''--is structured to maximize Soldier 
and Family reintegration. The 15-month model will set the conditions to 
move the Army to Objective ARFORGEN by FY11.
    Mr. Ortiz. General Casey, what is the Army's timeline for 
reconstituting its prepositioned stocks and thus eliminating strategic 
risk, or in your words, ``providing strategic depth''?
    General Casey. The answer to your question is classified; 
therefore, I have provided a separate response.
    Mr. Ortiz. General Casey, how will the Army's military construction 
program support accelerating Grow the Force?
    General Casey. The Army's military construction program is 
synchronized to complete construction of primary and supporting 
facilities for five additional Brigade Combat Teams (BCTs) in a 
sequence which supports their stationing requirements. Specifically, 
the facilities for the five BCTs will be programmed in the Army's 
upcoming Future Years Defense Program. Quality of Life projects which 
will support the BCTs are programmed a year later than the primary 
mission facilities to meet the accelerated standup of the Grow the 
Force units.
    Mr. Ortiz. General Casey, the delay of certain quality-of-life 
construction projects at 2005 BRAC gaining installations would not 
appear to support efforts to ``build a partnership with Army Families 
and improve Family readiness''? How will you overcome these budgetary 
constraints and reduce the strain on families?
    General Casey. The Army is committed to making quality of life 
(QOL) improvements by ensuring that required facilities are in place 
prior to re-stationing. The Army has identified requirements for 104 
QOL facilities--37 Child Development Centers, 8 Youth Centers, 21 
Fitness Centers, 25 Chapels, and 13 Fire Stations. The Army will 
continue programming additional construction improvements of QOL 
facilities to reduce the strain on Families. Additionally, we are in 
the final stages of approving an Army Family Covenant which will 
represent a $1.4 billion investment in fiscal year 2008 to improve our 
Families' quality of life. We are committed to providing similar levels 
over the next several years, and we will need your continued 
partnership.
    Mr. Ortiz. General Casey, what efforts are being taken to identify 
and analyze ``less necessary skills''? If much-needed reserve forces 
are shifted into the active component, how will you backfill the 
strategic reserve?
    General Casey. Since 2003, the Army has continued to identify and 
analyze the force to meet the major warfighting requirements, 
operational demands and Homeland Defense missions related to the 
persistent conflicts in our National Military Strategy. Our focus is to 
mitigate capability shortfalls by increasing high demand skills and 
reducing ``less necessary skills'' across all three components while 
maintaining balanced force capabilities, transitioning the Reserve 
Component to an operational force, and ensuring strategic depth across 
all three components. In maintaining the balance of capabilities across 
all three components, we avoid the risk of creating a requirement to 
``backfill'' skills in any one component. Instead, by conducting 
continuous, holistic reviews of the force requirements needed to ensure 
strategic depth across the Army, we shift capabilities within and 
across the components to meet most effectively our current and future 
Global Force Demands.
    Mr. Ortiz. General Casey, how will the Army prioritize and fund the 
elements identified under Army Business Transformation, i.e., 
management reform; acquisition reform; consolidation of administrative 
and compensation processes comprehensive redesign of organizations and 
business processes that generate, deploy and reset forces; 
consolidation of bases and activities; military to civilian conversion 
processes; and performance measurement enhancements. What is the 
funding plan for these activities?
    General Casey. Army Business Transformation is an enabler that 
exists across the Army and within its organizations, systems, and 
processes. The Army is prioritizing its Business Transformation efforts 
by focusing on the four Army imperatives: Sustain, Prepare, Reset, and 
Transform--and has internal resource review processes that bring 
competing needs together for review and funding. A separate process 
exists for the operational needs of the Soldiers and units both in 
theater and heading to theater. The Army is also using business best 
practices such as Lean Six Sigma to help prioritize our efforts.
    Funding for Business Transformation efforts comes from a variety of 
sources: explicit line items within the budget (e.g., BRAC); implicitly 
within other line items; process reengineering and organizational 
realignment that increases efficiencies, and rebalances and 
reprioritizes workload, for example the HMMWV reset line at Red River 
Army Depot was reengineered to increase production from 0.5 per week to 
125 without any increase in cost; and reprioritizing funding within 
reprogramming thresholds to provide modest central funding for the 
Army's Business Transformation office and Lean Six Sigma training.
    Mr. Ortiz. General Casey, what statutory changes are needed to 
adapt the reserve component to an operational reserve? What 
consultations are being held with the state governors to ensure their 
access to National Guard forces in times of emergency if reserve forces 
are operationalized?
    General Casey. The Army is examining the role of the Reserve 
Components (RC) within this era of persistent conflict. The Army 
leadership decided to expand the operational role of the RC to assist 
the total Army employed on a cyclical basis to add depth to the active 
force. It is currently premature to identify statutory changes which 
might be required to enhance the accessibility of this force. Once the 
requirements for the operational force are identified, if necessary, 
the Army will begin the legislative process to Congress for 
consideration at the earliest opportunity.
    The Nation's governors have unimpeded access to their National 
Guard forces in accordance with provisions of state law provided they 
are not mobilized for federal missions. The National Guard Bureau is 
their formal channel of communications with the States on all matters 
pertaining to the National Guard and the NGB staff is in regular and 
ongoing communication and consultation with state leaders.
    The Chief of the National Guard Bureau has communicated to the 
States the goal to manage National Guard mobilizations in ways which 
leave States with at least 50% of their National Guard forces in the 
state and available to the Governor at any particular time. Throughout 
this persistent conflict the National Guard Bureau was successful in 
this goal.
    The Emergency Management Assistance Compact provided depleted 
states (over half of their forces mobilized due to military necessity 
the access to adequate National Guard forces from other states should a 
disaster or other domestic emergency arise. This mechanism of sharing 
National Guard forces across state lines to aid an affected state in 
times of even catastrophic emergency was proven effective in the 
response to Hurricane Katrina.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. ABERCROMBIE

    Mr. Abercrombie. General Casey, the FCS program has numerous 
technical, software, and integration challenges to overcome, meaning it 
is not a sure thing to succeed. Does the Army have a viable alternative 
it can fall back on in the event that FCS cannot deliver the needed 
capability for the agreed-on cost?
    General Casey. Future Combat Systems (FCS) is ground-breaking 
development of a System of Systems for which there is no alternative. 
The FCS program is not a traditional one system program. FCS is the 
Army's first full-spectrum modernization in nearly 40 years. The FCS 
(Brigade Combat Team (BCT)) is the material solution for the future 
force and is the Army's principal modernization strategy that is the 
embodiment of the modular force, a modular system designed for ``full-
spectrum'' operations. It will network existing systems, systems 
already under development, and systems to be developed to meet the 
requirements of the Army's Future Force. It is adaptable to traditional 
warfare as well as complex, irregular warfare in urban terrains, mixed 
terrains such as deserts and plains, and restrictive terrains such as 
mountains and jungles. It is also adaptable to civil support, such as 
disaster relief. It is a joint networked (connected via advanced 
communications) system of systems. When fully operational, FCS will 
provide the Army and the joint force with unprecedented capability to 
see the enemy, engage him on our terms, and defeat him on the 21st 
century battlefield.
    As with all major weapons system development programs, the FCS 
program also faces technical, software, and integration challenges; 
however, these challenges are not insurmountable. The issues are 
successfully being addressed and resolved within the Army's cost and 
schedule parameters. To overcome these challenges, the FCS program has 
implemented risk mitigation plans to reduce the impact of the 
technical, software, and integration challenges. ``Currently, the FCS 
program is on cost and on schedule and is poised to provide mature FCS 
technology to the Current Force as soon as FY10 with spin out 
technologies.'' The early fielding and spin outs not only provide proof 
of FCS capabilities, but also serve as risk mitigation strategy to 
correct any development or integration issues before the FCS core 
Milestone C decision.
    Mr. Abercrombie. General Casey, does the Army have firm, 
quantifiable criteria that it can use to determine whether FCS is 
demonstrating needed technical and cost performance before a commitment 
to production is made? In your mind, what would constitute the 
thresholds that FCS must meet to stay viable?
    General Casey. The Milestone Decision Authority (MDA) determines 
the FCS program's approval for the production and deployment phase 
(Milestone C). Milestone C approval is based on whether the FCS program 
successfully meets or exceeds the SDD exit criteria and Milestone C 
entrance requirements. Further, the FCS program's cost and performance 
criterion are firmly embedded in the Acquisition Program Baseline 
(APB). The APB includes objective and threshold values for: RDT&E, 
procurement, average unit procurement cost, and program acquisition 
unit cost. The status of these cost metrics are reported to the 
Congress on an annual basis in the Selected Acquisition Report. In June 
2006, the Office of the Secretary of Defense submitted the FCS 
Independent Cost Estimate. This report identified risk areas that could 
lead to potential cost growth and schedule delays in the FCS 
development. The Army will re-assess and adjust, to align with the 
Department of Defense acquisition priorities and affordability 
constraints, if the risks identified in this report materialize.
    The Army has established a review process to ensure that the 
program continues to meet its cost and schedule goals. Annual reviews 
with Army and OSD leadership discuss current program status against set 
criteria, such as technical maturity and affordability. The Army 
evaluates the progress toward production readiness of the LSI by levels 
of engineering maturity. The Army will verify the engineering maturity 
criteria set forth in the contract at each milestones (preliminary 
design review, critical design review) leading up to Milestone C, where 
the engineering maturity level will be verified for readiness for 
entrance into low-rate initial production.
    Mr. Abercrombie. General Casey, independent estimates of FCS cost 
are some 30% higher than the Army's estimate, which forms the basis of 
budget estimates. Why does the Army believe its estimate to be more 
realistic, and what is the contingency plan in the event that the 
Army's estimate proves optimistic?
    General Casey. Much of the difference between the Army's estimate 
and the independent estimates is driven by potential risks that, to-
date, have not manifested themselves in negative cost performance. The 
Army acknowledges these risks and, has established program metrics and 
risk mitigation strategies to minimize the likelihood of the risks that 
lead to cost growth. At this point, it would not be prudent to plan and 
budget the program to a set of potential risks. Higher independent cost 
estimates are generally driven by potential program schedule delays 
that are assumed to be the primary impact of the identified risks. This 
means that in the event that some of the risks do come to pass, the 
program would face a total RDT&E cost issue, not a funding/
affordability issue. In other words, any extension of the RDT&E 
schedule would free up near-term planned procurement expenditures, 
thereby allowing the program to move forward without the need for 
additional resources. The Office of the Secretary of Defense and the 
Army intend to re-evaluate the FCS program if the program faces 
significant cost growth.
    Mr. Abercrombie. General Casey, recently, the Army announced its 
intention to award initial production of the core FCS systems to the 
Lead System Integrator. This decision seems to go against the Army's 
stated philosophy of keeping the LSI focused on development and 
avoiding organizational conflicts of interest by not giving the LSI a 
stake in production. Why the reversal in position? Why was it necessary 
to make a sole source announcement in 2007 when initial FCS production 
does not start until 2013--6 years away?
    General Casey. The Army is not reversing its philosophy of keeping 
the Lead Systems Integrator (LSI) focused on development. The 2007 sole 
source announcement provides mature FCS technology to the Current Force 
in three separate spin out increments before the FCS core production 
decision scheduled in FY13. Additionally, the NLOS-C production effort 
is to meet the Congressionally mandated fielding date of FY 2010. The 
Army intends to conduct separate Milestone C decisions for each of the 
efforts described in the spin outs and NLOS-C efforts.
    The Army initially determined that implementation of a LSI was the 
best program management approach for developing and managing the 
complexities of the Concept and Technology Development and SDD phases 
of the FCS program. The Army has further determined that the use of an 
LSI remains the most viable approach for the Spin Outs and the initial 
NLOS-C efforts. Additionally, the employment of the LSI concept has 
been approved for the FCS core program LRIP phase by the Milestone 
Decision Authority. It is critical to continue the employment of the 
LSI concept through the LRIP phase to hold the LSI accountable for the 
success of the SDD effort. During the LRIP phase, the FCS program will 
conduct the required test and evaluation of the FCS System of Systems 
to gain approval of the full rate production. As such, Boeing is the 
only contractor capable of fulfilling the LSI role for the subject 
major contractual efforts without seriously impacting performance, 
cost, and schedule.
    The first two initial production efforts, NLOS-C and Spin-Out 1 
(SO1), will be performed concurrently with the FCS core SDD effort, so 
it is essential that the same contractor be accountable for 
integrating, managing risk, budgeting, and scheduling between the 
efforts. While delivering the overall LRIP schedule is extremely 
challenging, the inclusion of synchronized Spin Out technology 
development timelines with a Congressionally mandated NLOS-C fielding 
add significant complexity to the schedule. Therefore, the acquisition 
strategy and long-term arrangements must be established well in advance 
of actual production start to allow the precision planning and 
coordination essential to the execution of the multiple layers of the 
FCS LRIP efforts in parallel with on-going development. The timing of 
the NLOS-C effort (long lead, facilities, tooling, during 1st quarter, 
FY08) and SO1 (long lead, facilities, tooling, during 2nd quarter, 
FY08) dictated that key decisions be made during FY2007 to determine 
the acquisition strategy for the LRIP effort.
    Mr. Abercrombie. General Casey, by the time of the 2013 initial 
production decision, the Army will have requested nearly $20 billion in 
production money for FCS. With development money, the total investment 
in FCS at that point will be around $40 billion. Is it conceivable that 
the Army could change its mind about FCS after that much investment? Is 
the production decision in 2013 in essence a foregone conclusion?
    General Casey. FCS embodies the key requirements we have identified 
to improve the current force and make an effective future force, and 
that has been reinforced by what we have learned from current 
operations. No production decision, though, is a foregone conclusion. 
Some of those requirements may be modified based on further lessons 
learned and the results of testing and the systems delivered may be 
modified. The Army will not buy equipment for its Soldiers that do not 
work. It also needs to be said that it is not really conceivable that 
the future Army will be able to maintain its dominant edge without 
networked systems providing extensive sensors coupled with unmanned 
systems in concert with robotic improvements and tactical dominance 
enabled by the Manned Ground Vehicles the FCS program is developing. 
The research and testing this program has paid for is necessary to 
develop those capabilities and will also enable greater developments in 
the future.
    The most recent budget justification material provided to Congress 
shows planned RDT&E budget requests of about $27.5 billion and planned 
production budget requests of about $9 billion (both figures are 
through FY13 for the core FCS program). Since the bulk of the planned 
production budget request in FY13 would not be spent until after a 
positive Milestone C decision, the total investment in FCS up to 
Milestone C is, in reality, about $30 billion. While this is still a 
significant figure, it represents less than 20% of the total planned 
acquisition investment (and the production investment is only about 
2.5% of the total planned production program). It should also be noted 
that there will be other program decision points prior to the Milestone 
C. A Defense Acquisition Board decision is planned for early 2009, 
after the program preliminary design review. The program will only 
reach the Milestone C decision after the Army has ensured its 
modernization priorities and FCS are properly aligned.
    Mr. Abercrombie. General Casey, during the hearing, both witnesses 
referred to the Small UAV, Small UGV, and T-UGS, U-UGS as ``programs 
developed within FCS research''. However, all three of those programs 
were originally developed outside the FCS program and subsequently 
moved inside FCS. For example, it is my understanding that development 
of the SUAV began within DARPA, the SUGV was originally developed as 
the ``Pakbot'' program, and the T-UGS/U-UGS were developed in part 
under the REMBASS program. In order to clarify this issue, please 
provide the following information for each of the three programs, as 
well as FCS Class IV UAV: Funding history, to include: project name(s), 
budget line(s), PE(s), and funding amount(s) for each budget year 
during U.S. government-funded development prior to incorporation into 
the FCS program; the number of systems currently deployed in Iraq or 
Afghanistan; and the capabilities, in comparison to threshold 
requirements, of any prototype systems currently deployed in Iraq or 
Afghanistan.
    General Casey. The U.S. Army attempted to retrieve the requested 
funding information from the Defense Advanced Research Projects Agency, 
but did not receive a response in time for this Question for Record 
response submittal. Even if the data was available, it is unlikely to 
provide a satisfactory answer to the question as asked. Here is the 
reason why: Generally, all major development programs incorporate (and 
mature) selected technologies and capabilities that are derived from 
basic and fundamental research efforts. The primary aim of basic 
research is a fuller knowledge or understanding of the subject under 
study, rather than any practical application. It is the first stage of 
the Research and Development process. The program elements funded under 
this basic research involve pre-Milestone A efforts. In fact, that is 
the reason for the existence of basic research and technology base 
efforts. The predecessor programs you mention are just a few examples 
of technology base efforts that have transitioned into Future Combat 
Systems (FCS). They tend to be the most visible because they resemble 
individual FCS ``platforms.'' However, it must be noted that there are 
significant differences between these predecessor systems and the 
threshold FCS platforms. Because of this, the funding history being 
requested may yield misleading results. In particular, not all of the 
development dollars related to the above predecessor programs are 
relevant from a FCS perspective, nor are the FCS dollars being spent on 
the corresponding threshold FCS platforms necessarily based on the 
prior work (i.e., besides maturation activities, there are significant 
unique development efforts). Beyond the fact that the requested cost 
data would likely be misleading, it is also difficult to know where to 
draw the line in terms of what constitutes a prior government-funded 
development effort for predecessor platforms and/or technologies.
    According to the Army G-8, there are currently 416 PACBOT variants 
in theater. These are comprised of several variants, each with a 
specialty. There are 14 Micro Aerial Vehicles (MAVs) in theater, which 
are a variant of the Small Unmanned Aerial Vehicle (SUAV) you 
referenced. There are no fielded Unmanned Ground Sensors (UGS) or Class 
IV Unmanned Aerial Vehicles (UAVs). There are significant improvements 
in the Class I UAV that will greatly increase its capabilities over the 
MAV currently deployed. One of these improvements is that the Class I 
UAV has a more capable camera, and features a laser designator and 
laser range finder. The Class I UAV also has a quieter and more fuel 
efficient engine. Most importantly of all, the currently deployed UAVs 
do not have the FCS battle command capabilities of the Class I UAV that 
will greatly increase the Soldier's situational awareness. In regards 
to the SUGV, the improvements over what is currently in theater are 
also significant, including the addition of FCS battle command 
capabilities. The FCS Small Unmanned Ground Vehicle (SUGV) is lighter 
in weight than its predecessors, easier for Soldiers to carry and the 
controller is smaller and easier to use. The SUGV can also laser 
designate targets, has an improved capability to maneuver on slopes and 
operate in an increased range of climates, and has a Global Positioning 
System enabling Soldiers to pinpoint its location. These improved 
capabilities for the Class I UAV and SUGV will greatly enhance their 
military utility for Soldiers across the full spectrum of combat.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOEBSACK

    Mr. Loebsack. Secretary Geren and General Casey, I have three 
primary Army National Guard battalions in my District. The 224th 
Engineer Battalion was deployed for OIF from October 2004-December 
2005. When the 224th deployed to Iraq, it was at 100% equipment 
readiness. When it redeployed, it was forced to leave most of its 
equipment in theater, leaving it with 30% of its required equipment, 
most of which was borrowed from other units. Secretary Geren and 
General Casey, when the 833rd Engineer Company was recalled to OIF 
after only 14 MONTHS of dwell time, they had no equipment on which to 
train. The Iowa National Guard was forced to borrow equipment from 
other states. If it were not for the ingenuity and resourcefulness of 
the Iowa National Guard, the unit would not have been able to properly 
train before their redeployment. Since the 883rd's redeployment, the 
224th Battalion's retention rate--which had previously maintained 98% 
personnel strength--has struggled to meet Iowa's retention rate of 85%. 
To say that this training, equipment, and readiness situation is 
alarming is a gross understatement. Iowa leans heavily on its National 
Guard for emergency response. Guard units operating with 30% of their 
equipment and with only 14 months of dwell time are simply not in a 
position to respond to an emergency at home. How do you intend to reset 
our National Guard's equipment? How long do you believe it will take to 
fully reset the National Guard's equipment?
    General Casey. The Army is committed to ensuring units deployed and 
units stationed at home have the necessary equipment to train and 
respond to future contingencies. We have established a plan to resource 
342 dual use items to ensure state units can respond to local and Title 
32 emergencies. The Army will provide approximately $26 billion through 
fiscal year 2013 (FY13) to fill Army National Guard (ARNG) requirements 
which include the 224th Engineer Battalion. The fill of equipment will 
take some time, but by FY15 we estimate that average fill of ARNG units 
will be 77 percent, and we are committed to achieving 100 percent. 
Until that time, we will work to mitigate current shortfalls of 
equipment by transferring equipment to units preparing for deployment 
or responding to contingencies. For ARNG equipment left in theater, the 
Army captures the requirement and restores that equipment to the ARNG. 
The FY07 Supplemental specifically provided $1.8 billion to replace a 
portion of the ARNG equipment left in theater. The National Guard 
Bureau submitted the 224th Engineer Battalion's 1225.6 payback requests 
for 507 items with a total value of $20.3 million. These items include 
M113 tracked personnel carriers, tractor trucks, and dump trucks. All 
the 224th's items were validated and are scheduled for payback to ARNG 
by the end of FY09.
    In regards to dwell time, the Army is pursuing three initiatives: 
Grow the Army, balancing the force, and implementing Army Force 
Generation, or ARFORGEN. The goal is to achieve a 3:1 dwell to 
deployment ratio for the active component and 5:1 ratio for the reserve 
component. The combined effect of these efforts will be greater 
capability for our Army's strategic depth, 100 percent equipment fill, 
and longer dwell between rotations.
    Mr. Loebsack. The 833rd's quick redeployment has not only affected 
its readiness, it has devastated its morale and has had a significant 
emotional impact on the Soldiers and their families. An Army study 
found that consistency and predictability are vital to military 
families. Do you intend to continue to deploy Guard units with short 
dwell time? What effort is the Army taking to provide greater 
consistency and predictability in deployment?
    General Casey. The planning objective for mobilization of National 
Guard and Army Reserve units is one year mobilized to five years at 
home. However, today's global demands will require a number of selected 
Guard/Reserve units to be remobilized sooner than this standard. We 
intend that such exceptions be temporary and move to the broad 
application of the 1:5 goal as soon as possible. In order to provide 
Soldiers and their Families more immediate predictability, we are 
working hard to alert Guard and Reserve units at least 12 months before 
mobilizations and limit their mobilizations to 12 months. This will 
enable Soldiers, their Families and employers more reliability in their 
planning for mobilizations. Our policy is that every Guard and Reserve 
Soldier receives at least 12 months of demobilized time prior to being 
mobilized again, even if the Soldier volunteers. We are working hard to 
restore balance to the Army over the next several years, and we will 
move as quickly as possible to provide our Reserve Component Soldiers, 
Families and employers with five years in between mobilizations.

                                  <all>

</pre></body></html>
